                                              MINE SAFETY AND
                                              HEALTH ADMINISTRATION

Office of Inspector General—Office of Audit




                                              PROCUREMENTS SHOWED A PATTERN
                                              OF DISREGARD FOR FEDERAL AND DOL
                                              ACQUISITION RULES AND REQUIREMENTS




                                                                     Date Issued: October 29, 2004
                                                                  Report Number: 25-05-001-06-001
Department of Labor                                    OCTOBER 2004
Office of Inspector General
Office of Audit                                        MINE SAFETY AND HEALTH
                                                       ADMINISTRATION PROCUREMENTS
                                                       SHOWED A PATTERN OF DISREGARD FOR

BRIEFLY…                                               FEDERAL AND DOL ACQUISITION RULES
                                                       AND REQUIREMENTS

Highlights of Report Number: 25-05-001-06-001, to      WHAT OIG FOUND
the Deputy Secretary of Labor.                         The OIG found that seven allegations could not be
                                                       substantiated. However, we did find a number of
WHY READ THE REPORT                                    allegations that had merit. For the period June 2000
The Office of Inspector General (OIG) is responsible   through December 2002, we found that:
for assessing allegations against any DOL agency
that involve fraud, waste, or abuse. This report       1. MSHA did not always ensure the Government
provides the OIG’s findings with respect to               received best value or that vendors were treated
allegations concerning Mine Safety and Health             fairly in the award of contracts.
Administration (MSHA) management in the areas of       2. MSHA circumvented requirements to procure
procurement and related personnel matters.                office furniture and travel management services
                                                          from required sources.
                                                       3. A potential conflict of interest existed in the
WHY OIG DID THE AUDIT                                     award of contracts to a company owned by a
Within the DOL, MSHA is one of only two agencies          Contracting Officer’s spouse.
that was granted independent procurement               4. Excessive unauthorized commitments and
authority.                                                ratifications were made.
                                                       5. Deficiencies existed in how MSHA administered
Beginning in May 2002 and continuing until                some of its contracts.
May 2003, the OIG received a series of allegations
regarding MSHA. The allegations involved MSHA’s        The overall cause for the problems we identified was
procurement and contracting procedures,                a long-term MSHA-wide history of career and non-
Government travel and purchase card usage,             career management that accepted and fostered a
computer security, and personnel issues.               lack of commitment to procurement principles, which
                                                       was facilitated by a lack of segregation of the
The objective of our audit was to determine the        procurement function from the program. This lack of
merits of the allegations and, for those that had      segregation allowed program staff to exert undue
merit, recommend appropriate corrective action.        influence over the procurement process.
Our audit period was June 1, 2000 through
December 31, 2002.                                     That environment resulted in management being
                                                       unable to assure that contracts were in the best
READ THE FULL REPORT                                   interest of the Government, and that all eligible
To view the report, including the scope,               contractors were afforded a fair opportunity to
methodology, and full agency response, go to:          provide supplies or services to MSHA.

http://www.oig.dol.gov/public/reports/oa/2005/2        We could not conclude on the allegations of
5-05-001-06-001.pdf                                    retaliation.

                                                       WHAT OIG RECOMMENDED
                                                       We recommended that the Deputy Secretary of
                                                       Labor direct the DOL Procurement Executive to
                                                       rescind MSHA’s procurement authority, reassign
                                                       such authority, and ensure that it is completely
                                                       independent of MSHA.

                                                       The Deputy Secretary responded that it will be
                                                       important to assess the full breadth and
                                                       effectiveness of recent procurement reforms to make
                                                       an informed judgment on our recommendation.
MSHA Procurements Showed a Pattern of Disregard
for Federal and DOL Acquisition Rules and Requirements



Table of Contents
                                                                                                                                Page

EXECUTIVE SUMMARY ........................................................................................................ 1

ASSISTANT INSPECTOR GENERAL’s REPORT ................................................................ 5

ALLEGATIONS NOT SUBSTANTIATED .............................................................................. 8

FINDINGS BASED ON SUBSTANTIATED ALLEGATIONS AND
ADDITIONAL INFORMATION FOUND DURING OUR AUDIT............................................ 12

          FINDING 1 - MSHA did not ensure the Government received best
                      value or that vendors were treated fairly in the award
                      of contracts ...................................................................................... 12
          FINDING 2 - MSHA circumvented requirements to procure office
                      furniture and travel management services from
                      required sources.............................................................................. 36
          FINDING 3 - A potential conflict of interest existed in the award
                      of contracts to a company owned by a Contracting
                      Officer’s spouse............................................................................... 41
          FINDING 4 - Excessive unauthorized commitments and ratifications
                      were made ........................................................................................ 43
          FINDING 5 - Deficiencies existed in how MSHA administered
                      its contracts ..................................................................................... 45
          FINDING 6 - We could not conclude whether actions taken against
                      two Contracting Officers were retaliatory, as alleged .................. 49

OVERALL AUDIT CONCLUSION........................................................................................ 52

RECOMMENDATION ........................................................................................................... 53

EXHIBITS.............................................................................................................................. 55
  A. ENVISION TECHNOLOGY PARTNERS, INC. CONTRACTS ................................. 57
  B. T/CLARK & ASSOCIATES, INC. CONTRACTS ...................................................... 58
  C. ADVANCED RESOURCE TECHNOLOGY, INC. CONTRACTS ............................. 62

APPENDICES ....................................................................................................................... 63
  A. BACKGROUND ........................................................................................................ 65
  B. OBJECTIVES, SCOPE, METHODOLOGY, SAMPLING, AND CRITERIA.............. 67
  C. SUMMARY OF ALLEGATIONS ............................................................................... 75
  D. ACRONYMS AND ABBREVIATIONS...................................................................... 79
  E. AGENCY RESPONSE .............................................................................................. 81




U.S. Department of Labor—Office of Inspector General                                                                                    i
Report Number: 25-05-001-06-001
                      MSHA Procurements Showed a Pattern of Disregard
                for Federal and DOL Acquisition Rules and Requirements




     THIS PAGE INTENTIONALLY LEFT BLANK




ii             U.S. Department of Labor—Office of Inspector General
                                   Report Number: 25-05-001-06-001
MSHA Procurements Showed a Pattern of Disregard
for Federal and DOL Acquisition Rules and Requirements



Executive Summary
The Mine Safety and Health Administration (MSHA) was transferred from the
Department of the Interior (where it was called the Mine Enforcement and Safety
Administration) to the Department of Labor (DOL) with the enactment of the Federal
Mine Safety and Health Act of 1977. Within the DOL, MSHA is one of only two
agencies that was granted acquisition authority for the purchase, lease and renewal
of lease(s) of Federal Information Processing (FIP) resources.

Beginning in May 2002 and continuing until May 2003, the Office of Inspector
General (OIG) received a series of allegations regarding MSHA. The allegations
involved MSHA’s procurement and contracting procedures, Government travel and
purchase card usage, computer security, and personnel issues. The objective of our
audit was to determine the merits of the allegations and, for those that were
substantiated, recommend appropriate corrective action. Our audit period was
June 1, 2000 through December 31, 2002.

RESULTS

The following table presents each allegation and our conclusion on whether the
allegation was substantiated.

                                                                                  AUDIT
                             ALLEGATION                                        CONCLUSION
 An MSHA executive directed the award of contracts to friends.                Not
                                                                              Substantiated
 The hiring of a Deputy Assistant Secretary created a conflict of interest.   Not
                                                                              Substantiated
 A Deputy Assistant Secretary benefited financially from the contract         Not
 awarded to Ben W. Sheppard & Associates.                                     Substantiated
 Training provided by Ben W. Sheppard & Associates could have been            Not
 obtained free of charge from MSHA or other educational institutions.         Substantiated
 MSHA forced a Contracting Officer in headquarters to retire because the      Not
 agency did not want him talking about contracting misdeeds.                  Substantiated
 Illegal software was loaded on MSHA computers and payments were              Not
 made to MSHA personnel in connection with the improper actions and           Substantiated
 covered up by management personnel.
 The Office of the Assistant Secretary for Administration and                 Not
 Management (OASAM) tried to hire an MSHA employee while the                  Substantiated
 employee was on administrative leave for misuse of a purchase card
 and/or the employee was detailed to OASAM with unlimited warrant
 authority while on administrative leave.
 Performance Associates International (PAI) was not uniquely qualified to     Substantiated
 evaluate training programs; therefore, the sole source award was not         (See Finding 1)
 properly justified.
 MSHA management did not intend to open the contract being performed          Substantiated
 by PAI to competition as required by procurement law.                        (See Finding 1)



U.S. Department of Labor—Office of Inspector General                                            1
Report Number: 25-05-001-06-001
                                            MSHA Procurements Showed a Pattern of Disregard
                                      for Federal and DOL Acquisition Rules and Requirements

                                                                                  AUDIT
                                   ALLEGATION                                 CONCLUSION
    Ben W. Sheppard & Associates was not uniquely qualified to provide       Substantiated
    training; therefore, the sole source award was not properly justified.   (See Finding 1)
    MSHA program officials verbally ordered computers for the Arlington      Substantiated
    office move before a procurement action had been taken, and the lowest   (See Finding 1)
    bidder was not used.
    High dollar procurements were placed without competition, or             Substantiated
    consolidation, by using small purchase vehicles and increasing the       (See Finding 1)
    procurement by millions of dollars over time.
    An MSHA Contracting Officer was directed by supervisory personnel to     Substantiated
    process two purchase orders to cover unauthorized commitments            (See Finding 1)
    totaling over $600,000.
    MSHA was planning to purchase system furniture from other than a         Substantiated
    required source.                                                         (See Finding 2)
    MSHA management approved illegal procurement of furniture for the        Substantiated
    Denver office without consideration of the cost or regulations.          (See Finding 2)
    An MSHA employee contracted with a business owned by a spouse.           Substantiated
                                                                             (See Finding 3)
    MSHA used unauthorized commitments as an accepted practice.              Substantiated
                                                                             (See Finding 4)
    An MSHA employee was transferred to OASAM for not assisting in           Inconclusive
    covering up improper procurement actions and was terminated illegally    (See Finding 6)
    by MSHA for misuse of a Government travel card.
    An MSHA Contracting Officer was forced to retire because the employee    Inconclusive
    would not take a directed reassignment. The reassignment was related     (See Finding 6)
    to the employee questioning the award of an IT contract.
    MSHA management retaliated against a former Contracting Officer by       Inconclusive
    canceling a job announcement after the individual applied for and was    (See Finding 6)
    offered a position with MSHA.

With respect to the allegations that were substantiated and additional information
discovered as a result of our audit, we have findings in the following areas:

      1. MSHA did not always ensure the Government received best value or that
         vendors were treated fairly in the award of contracts.

      2. MSHA circumvented requirements to procure office furniture and travel
         management services from required sources.

      3. A potential conflict of interest existed in the award of contracts to a company
         owned by a Contracting Officer’s spouse.

      4. Excessive unauthorized commitments and ratifications were made.

      5. Deficiencies existed in how MSHA administered some of its contracts.

      6. We could not conclude whether actions taken against two Contracting
         Officers were retaliatory, as alleged.



2                                        U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 25-05-001-06-001
MSHA Procurements Showed a Pattern of Disregard
for Federal and DOL Acquisition Rules and Requirements

The overall cause for the problems we identified was a long-term MSHA-wide history
of career and non-career management that accepted and fostered a lack of
commitment to procurement laws and principles, which was facilitated by a lack of
segregation of the procurement function from the program. This lack of segregation
allowed program staff to exert undue influence over the procurement process.
Additional causes included Contracting Officers’ and program officials’ lack of
knowledge about procurement requirements, the use of sole source procurement as
a first – rather than last – resort, and a lack of acquisition planning that resulted in
procurement officials having inadequate time to properly complete procurement
actions.

CONCLUSION

MSHA did not adhere to the principle of full and open competition embodied in the
Federal Acquisition Regulation (FAR). The OIG believes that this guiding principle
of full and open competition serves – more than technical compliance with the letter
of the FAR – as the standard against which the effectiveness of procurement actions
should be judged. It is not reasonable to believe that Congress intended
streamlining of Federal procurement to replace responsible actions on the part of
agency Contracting Officers or agency management to protect the Government’s
best interests. We found MSHA repeatedly demonstrated a lack of regard for FAR
principles and fostered an environment that allowed, or at the very least, gave the
appearance of allowing contract awards based on favoritism or convenience.

The lack of segregation of the procurement function from the program function
allowed program officials to exert undue influence over procurement personnel. This
was evidenced by Contracting Officers who, although responsible for ensuring the
agency followed procurement laws and regulations, were not always allowed to do
their jobs, but rather were expected to implement decisions made by others and did
so.

This lack of adhering to the spirit as well as the letter of procurement law, leaves
MSHA vulnerable to protest from vendors who were not given the opportunity to
compete for MSHA’s contracts, or required sources that were not used in all cases.

The OIG recently reviewed contract files for procurements made by MSHA in
FYs 2003 and 2004. We observed a degree of file documentation that, had MSHA
documented its procurement actions and rationale for its choices of procurement
instruments to the same extent during the period included in our audit, would have
addressed some of the findings in this report. However, there remains a lack of
segregation between the procurement function and the program, which continues
the risk that procurement failures noted in this report could occur in the future.




U.S. Department of Labor—Office of Inspector General                                   3
Report Number: 25-05-001-06-001
                                       MSHA Procurements Showed a Pattern of Disregard
                                 for Federal and DOL Acquisition Rules and Requirements

RECOMMENDATION

We recommend that the Deputy Secretary of Labor direct the DOL Procurement
Executive to rescind MSHA’s procurement authority, reassign such authority, and
ensure that it is completely independent of MSHA.

AGENCY RESPONSE

The Deputy Secretary responded that it will be important to assess the full breadth
and effectiveness of procurement reforms initiated subsequent to the audit period
covered by our report, in order to make an informed judgment on the audit report's
recommendation.

OIG's CONCLUSION

As we previously stated in our report, while the degree of compliance with
procurement laws and principles may improve, unless a change is made to the
current structure there remains a lack of segregation between the procurement
function and the program, continuing this inherent risk that procurement failures
could occur in the future. As we also noted, the granting of such separate
procurement authority in the Department is limited — MSHA is one of only two
agencies with this authority. Therefore, the Department should look carefully at the
bona fide need to grant such authority in light of the inherent risk. Our
recommendation remains unresolved.




4                                   U.S. Department of Labor—Office of Inspector General
                                                        Report Number: 25-05-001-06-001
MSHA Procurements Showed a Pattern of Disregard
for Federal and DOL Acquisition Rules and Requirements

U.S. Department of Labor                                    Office of Inspector General
                                                            Washington, DC. 20210




                                Assistant Inspector General’s Report




The Honorable Steven J. Law
Deputy Secretary of Labor
U.S Department of Labor
200 Constitution Ave., N.W.
Washington, D.C. 20210

Since May 2001, the Office of Inspector General (OIG) has done extensive reviews
of selected operations of the Mine Safety and Health Administration (MSHA). This
audit report presents the results of the second review the OIG completed based on
allegations of wrongdoing in MSHA.

Our first review was a criminal investigation into 16 allegations related to MSHA’s
investigation of the October 2000 Martin County Coal Co. slurry spill, including
allegations of retaliation by an employee of MSHA. In January 2003, we reported on
the results of our investigation in which we concluded that none of the allegations
could be corroborated.

Beginning in the spring of 2002, the OIG received a series of allegations regarding
MSHA procurement and contracting procedures, Government travel card usage,
computer security, and personnel issues.1 This report presents the results of our
audit into allegations we received and considered during the period May 2002 to
May 2003. See Appendix C for a summary listing of the allegations. The objective
of the audit was to determine the merits of the allegations and, for those that were
substantiated, recommend appropriate corrective action. Our audit period was
June 1, 2000 through December 31, 2002. In addition, we tested some contracts
with FYs 2003 and 2004 activity to obtain an understanding of how MSHA’s contract
files were currently being handled.




1
    See Appendix B for a detailed explanation of audit objectives, scope, methodology, sampling, and criteria.

U.S. Department of Labor—Office of Inspector General                                                             5
Report Number: 25-05-001-06-001
                                             MSHA Procurements Showed a Pattern of Disregard
                                       for Federal and DOL Acquisition Rules and Requirements

AUDIT RESULTS

The following table presents each allegation we considered and our conclusion on
whether the allegation was substantiated.

                                                                                    AUDIT
                                   ALLEGATION                                       CONCLUSION
An MSHA executive directed the award of contracts to friends.                       Not Substantiated
The hiring of a Deputy Assistant Secretary created a conflict of interest.          Not Substantiated
A Deputy Assistant Secretary benefited financially from the contract awarded to     Not Substantiated
Ben W. Sheppard & Associates.
Training provided by Ben W. Sheppard & Associates could have been obtained          Not Substantiated
free of charge from MSHA or other educational institutions.
MSHA forced a Contracting Officer in headquarters to retire because the agency      Not Substantiated
did not want him talking about contracting misdeeds.
Illegal software was loaded on MSHA computers and payments were made to             Not Substantiated
MSHA personnel in connection with the improper actions and covered up by
management personnel.
The Office of the Assistant Secretary for Administration and Management             Not Substantiated
(OASAM) tried to hire an MSHA employee while the employee was on
administrative leave for misuse of a purchase card and/or the employee was
detailed to OASAM with unlimited warrant authority while on administrative leave.
Performance Associates International (PAI) was not uniquely qualified to evaluate   Substantiated
training programs; therefore, the sole source award was not properly justified.     (See Finding 1)
MSHA management did not intend to open the contract being performed by PAI to       Substantiated
competition as required by procurement law.                                         (See Finding 1)
Ben W. Sheppard & Associates was not uniquely qualified to provide training;        Substantiated
therefore, the sole source award was not properly justified.                        (See Finding 1)
MSHA program officials verbally ordered computers for the Arlington office move     Substantiated
before a procurement action had been taken, and the lowest bidder was not used.     (See Finding 1)
High dollar procurements were placed without competition, or consolidation, by      Substantiated
using small purchase vehicles and increasing the procurement by millions of         (See Finding 1)
dollars over time.
An MSHA Contracting Officer was directed by MSHA supervisory personnel to           Substantiated
process two purchase orders to cover unauthorized commitments totaling over         (See Finding 1)
$600,000.
MSHA was planning to purchase system furniture from other than a required           Substantiated
source.                                                                             (See Finding 2)
MSHA management approved illegal procurement of furniture for the Denver office     Substantiated
without consideration of the cost or regulations.                                   (See Finding 2)
An MSHA employee contracted with a business owned by a spouse.                      Substantiated
                                                                                    (See Finding 3)
MSHA used unauthorized commitments as an accepted practice.                         Substantiated
                                                                                    (See Finding 4)
An MSHA employee was transferred to OASAM for not assisting in covering up          Inconclusive
improper procurement actions and was terminated illegally by MSHA for misuse of     (See Finding 6)
a Government travel card.
An MSHA Contracting Officer was forced to retire because the employee would not     Inconclusive
take a directed reassignment. The reassignment was related to the employee’s        (See Finding 6)
questioning the award of an IT contract.
MSHA management retaliated against a former Contracting Officer by canceling a      Inconclusive
job announcement after the individual applied for and was offered a position with   (See Finding 6)
MSHA.




6                                          U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 25-05-001-06-001
MSHA Procurements Showed a Pattern of Disregard
for Federal and DOL Acquisition Rules and Requirements

With respect to the allegations that were substantiated and additional information
discovered as a result of our audit, we have findings in the following areas:

   1. MSHA did not always ensure the Government received best value or that
      vendors were treated fairly in the award of contracts.

   2. MSHA circumvented requirements to procure office furniture and travel
      management services from required sources.

   3. A potential conflict of interest existed in the award of contracts to a company
      owned by a Contracting Officer’s spouse.

   4. Excessive unauthorized commitments and ratifications were made.

   5. Deficiencies existed in how MSHA administered some of its contracts.

   6. We could not conclude whether actions taken against two Contracting
      Officers were retaliatory, as alleged.

The details of our audit are presented below with respect to allegations as defined
on page 68 of this report. We have presented those allegations that have not been
substantiated, and findings related to the allegations that could be substantiated,
and findings related to other information developed during our audit.




U.S. Department of Labor—Office of Inspector General                                    7
Report Number: 25-05-001-06-001
                                       MSHA Procurements Showed a Pattern of Disregard
                                 for Federal and DOL Acquisition Rules and Requirements



Allegations Not Substantiated
                             The OIG found that seven allegations were not
    The OIG Found No         substantiated, as discussed below. In some cases, the
    Evidence to              subjects of the unsubstantiated allegations also played
    Support Seven            a role in findings related to allegations we did
    Allegations              substantiate. Where this is the case, we have provided
                             a reference to the pages where the related findings are
                             discussed.


1.     The OIG found no evidence to support allegations that an MSHA
       executive improperly directed the award of contracts to friends.

The OIG received an allegation that a top MSHA official improperly gave contracts to
their friends and/or business associates. While we confirmed that the companies
that were the subject of the allegation did receive contracts from MSHA, we found no
evidence that a top MSHA executive improperly influenced the contract decisions.
However, other issues related to these contracts are discussed on pages 27 and 31
of this report.

2.     The OIG found no support for allegations that the hiring of a Deputy
       Assistant Secretary created a conflict of interest.

The OIG received allegations that MSHA had created a possible conflict of interest
by hiring a Deputy Assistant Secretary who had been the Chief Executive Officer of,
and was still associated with, the International Society of Mine Safety Professionals,
an organization currently receiving payments from a training contract MSHA had
with Ben W. Sheppard & Associates. It was also alleged that the Deputy Assistant
Secretary was associated with personnel from Performance Associates
International, a company also under contract with MSHA. While our audit found that
the Deputy Assistant Secretary was the Chief Executive Officer of the organization
before he came to MSHA and was on the Board of Directors after accepting a
position with MSHA, he resigned his position on the Board soon after accepting the
appointment with MSHA in order to ensure there would be no conflict of interest or
an appearance of a conflict of interest. Based on information obtained through
various interviews, we concluded there were no business or personal connections
between the Deputy Assistant Secretary and Performance Associates International
that would create a conflict of interest. However, we identified issues related to
improper procurements of the Performance Associates International and Ben W.
Sheppard & Associates contracts, as discussed on pages 27 and 31, respectively, of
this report.




8                                   U.S. Department of Labor—Office of Inspector General
                                                        Report Number: 25-05-001-06-001
MSHA Procurements Showed a Pattern of Disregard
for Federal and DOL Acquisition Rules and Requirements

3.     The OIG found no evidence to support allegations that a Deputy
       Assistant Secretary benefited financially from a contract awarded to
       Ben W. Sheppard & Associates.

The OIG received allegations that a Deputy Assistant Secretary benefited financially
from a contract awarded to Ben W. Sheppard & Associates. We did not find any
evidence that the Deputy Assistant Secretary benefited financially from the fact that
Ben W. Sheppard was being used to provide training to MSHA personnel. However,
other issues related to this procurement are discussed on page 31 of this report.

4.     The OIG found no evidence to support allegations that training provided
       by Ben W. Sheppard & Associates could have been obtained free of
       charge from MSHA.

The OIG received an allegation that the training provided by Ben W. Sheppard &
Associates could have been obtained free of charge. Based on information obtained
during our audit, we found that the training was a 5-day course directed toward
passing an examination for certification as a Mine Safety Professional. Regardless
of whether the MSHA Academy could have provided the same or similar course as
that offered by Ben W. Sheppard & Associates, training offered by the Academy is
not free. In addition, the costs of the training course offered by Ben W. Sheppard &
Associates included the cost of the International Society of Mine Safety
Professional’s certification examination; we did not find evidence that the Academy
provided this examination free of charge.

We did not include procedures to determine if other educational institutions might
have offered the same training at no cost. However, even if similar training had
been available free of charge from outside providers, we believe MSHA’s
acceptance of such training would have raised an issue of improper augmentation of
MSHA’s appropriation. In a related matter, we found improper procurement actions
regarding Ben W. Sheppard & Associates, as noted on page 31 of this report.

5.     The OIG found no evidence to support allegations that a Contracting
       Officer in headquarters was forced to retire by MSHA.

The OIG received an allegation that a Contracting Officer located at MSHA’s
headquarters in Arlington, Virginia, was forced to retire because agency officials
feared the Contracting Officer would talk about contracting misdeeds. We
interviewed the Contracting Officer in question and the employee stated that his
retirement was primarily due to health concerns.




U.S. Department of Labor—Office of Inspector General                                 9
Report Number: 25-05-001-06-001
                                      MSHA Procurements Showed a Pattern of Disregard
                                for Federal and DOL Acquisition Rules and Requirements

6.    The OIG found no evidence to support allegations that illegal software
      was loaded on MSHA computers and payments were made to MSHA
      personnel in connection with the improper actions and covered up by
      management personnel.

The OIG received allegations that MSHA had installed unauthorized software on
computers in the Human Resources Division (HRD) in MSHA’s headquarters in
Arlington, Virginia. The allegations included statements that MSHA (1) paid the
husband of an HRD employee to install the unauthorized software and certain
MSHA employees who had knowledge of the illegal software; and (2) covered up
those payments. To test for the presence of unauthorized software, OIG auditors
used a specialized computer application to scan all workstations (20) located in
MSHA’s HRD in Arlington, Virginia. Upon completion of the scanning process,
analyses were performed to identify unauthorized software products. We found no
unauthorized software present on the computers tested. In addition, based on
information obtained through interviews with MSHA personnel, we found that the
allegation did not relate to new software, but rather to a database developed by
MSHA staff using Microsoft Access, which was already available on MSHA’s
computer system.

The allegations we received also contained statements that payments were made to
the husband of the HRD employee who allegedly installed the software and MSHA
employees who knew about the illegal software. To determine the validity of this
allegation, we queried DOLAR$ to identify any payments made to the employee’s
husband or MSHA employees other than payments properly due the employees. No
such payments were identified.

7.    The OIG found no evidence that OASAM tried to hire an MSHA
      employee while the employee was on administrative leave for
      misuse of the employee’s purchase card, or that the employee
      was detailed to OASAM and given unlimited warrant authority to
      purchase services while on administrative leave from MSHA with
      unresolved questions regarding the employee’s integrity.

The OIG received allegations that OASAM management tried to hire an MSHA
employee who was on administrative leave for misuse of a purchase card, and that
the employee was detailed to OASAM with unlimited warrant authority while on
administrative leave with unresolved questions regarding the employee’s integrity.
Based on our audit, we found that the employee had been approached by OASAM
personnel about a position with OASAM several months before coming to OASAM
on detail. We also found that the employee was not on administrative leave before
beginning a detail with OASAM. Based on information obtained during our audit, we
found no personnel file documentation that shows that the employee was on
administrative leave for any purpose. We did, however, find that the employee was
away from work for 3 days after being informed of travel card violations, but then
returned to the detail with OASAM. The employee was on detail to OASAM for

10                                 U.S. Department of Labor—Office of Inspector General
                                                       Report Number: 25-05-001-06-001
MSHA Procurements Showed a Pattern of Disregard
for Federal and DOL Acquisition Rules and Requirements

several months before accepting a position with the Department of Navy in the
procurement area. We did not find evidence that there was an issue with the
employee related to a purchase card. However, as noted in finding No. 6 on
page 49 of this report, there was an issue raised by MSHA management involving
the employee’s travel card.




U.S. Department of Labor—Office of Inspector General                             11
Report Number: 25-05-001-06-001
                                        MSHA Procurements Showed a Pattern of Disregard
                                  for Federal and DOL Acquisition Rules and Requirements



Findings Based on Substantiated
Allegations and Additional
Information Found During Our Audit
The allegations (see Appendix C) substantiated by our audit and additional
conditions found during our audit involving MSHA’s contracting actions and
personnel issues are presented below:

                                        Our audit of the procurement-related
     Finding 1 - MSHA Did Not           allegations found that MSHA did not ensure
     Ensure the Government              the Government received fair and reasonable
     Received Best Value or             prices, conflicts of interest and favoritism
     That Vendors Were Treated          existed in appearance, if not in fact, and the
     Fairly in the Award of             Government could have been exposed to
     Contracts (Allegations 9,          protest by and liabilities to other sources that
                                        were not given a fair opportunity to compete
     10, 11, 12, 13, 16, 17, & 19)      for such awards. The conditions found in this
                                        finding involved MSHA’s failure to follow
                                        procurement laws and regulations in
contracting under the Federal Acquisition Regulations, including Federal Supply
Schedule, Simplified Acquisition, sole source procedures, and SBA’s 8(a) program.

In response to allegations that MSHA improperly contracted with selected vendors,
we reviewed contracts MSHA awarded to the following:

a.       Envision Technology Partners                   $10,781,173.80
         (IT services)
b.       T/Clark and Associates                         $ 3,613,146.96
         (Computer equipment)
c.       Advanced Resource Technologies, Inc.           $ 2,106,887.23
         (IT services)
d.       GovConnection                                  $    682,670.64
         (IT equipment and services)
e.       Performance Associates, Inc.                   $    345,586.00
         (Advisory and assistance services)
f.       Other Sole Source Awards                       $    237,731.00
         (Training and other services)

         TOTAL                                          $17,767,195.63




12                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 25-05-001-06-001
MSHA Procurements Showed a Pattern of Disregard
for Federal and DOL Acquisition Rules and Requirements

                              During the period October 27, 2000 through
 Finding 1a:
                              September 30, 2002, MSHA entered into 19 contracts
 Envision Technology
                              and contract modifications totaling $10.8 million to
 Partners, Inc. ($10.8
                              obtain information technology and related services from
 million)
                              Envision, an 8(a) contractor that is on the GSA
                              schedule. See Exhibit A for a detailed listing of these
                              contracts.

Based on responses to OIG inquiries, MSHA management stated that Envision’s
contracts were based on the use of a Federal Supply Schedule contract and,
therefore, met the FAR requirement for full and open competition. They further
noted that all orders with Envision were awarded using the Simplified Acquisition
procedures under FAR Part 13. In addition, we were told that Envision is a small
8(a) certified business that is eligible for small business set-aside awards under the
Federal Supply Schedule and Small Business Administration award programs. They
explained that, while not stated specifically on the contracting documents, use of
Envision as a contractor was for the purpose of setting aside a class of acquisitions
to an 8(a) certified contractor in accordance with FAR Part 19.

Using documentation supplied by MSHA, we found that of the 19 contract files
examined, 8 included Standard Form (SF) 279, Individual Contract Action Report,
which provided evidence of the contract action intended to be taken by MSHA on
those contracts. Each of the eight forms noted that Envision was classified as a
Small Disadvantaged Business. However, on only one of the forms was a contract
noted as 8(a) under the portion of the form that identifies the Small Disadvantaged
Business Program used for the procurement. In that same category, MSHA noted
one contract as a Small Disadvantaged Business Set Aside. In the category, Other
Preference Programs, MSHA included two contracts as Small Business Set Asides.
Of the eight contract files that include an SF 279, we found four that indicated the
Contracting Officer used the Federal Supply Schedule and another four that
indicated the procurement used the Simplified Acquisition Procedures. The
remaining 11 contracts did not have sufficient information in the contract file to make
a decision as to what method MSHA initially planned to use for the procurement.

Although MSHA management stated that orders placed with Envision were awarded
using the Simplified Acquisition Procedures under FAR Part 13, they were not able
to provide evidence that Contracting Officers followed the requirement of FAR
Part 13 section 13.003 (h) (1), “In addition to other considerations, contracting
officers shall – promote competition to the maximum extent practicable.”

MSHA Claims the Use of Federal Supply Schedule Contracting
Information provided by management, that the Envision orders were placed using
the Federal Supply Schedule based on Envision's having a Federal Supply Schedule
number and that number being included on the purchase order or invoices submitted
by the company, did not provide support for the actions taken by MSHA Contracting
Officers. As noted above, in the contracting files that included documentation

U.S. Department of Labor—Office of Inspector General                                 13
Report Number: 25-05-001-06-001
                                        MSHA Procurements Showed a Pattern of Disregard
                                  for Federal and DOL Acquisition Rules and Requirements

identifying the type of procurement used for a specific contract, we found MSHA
indicated on four of eight contracts that the Contracting Officer used the Federal
Supply Schedule provisions to make the purchase.

In those cases where MSHA did plan to procure services using Federal Supply
Schedule procedures, the FAR included specific requirements that should have
been followed by the Contracting Officer. FAR 8.404 (b)(2) includes procedures for
orders exceeding the micro-purchase threshold (orders for more than $2,500) but
not exceeding the maximum order threshold (the maximum order threshold is
defined in each schedule contract). This part provides instructions for Contracting
Officers to place orders with the schedule contractor that can provide the supply or
service that represents the best value. However, before placing an order, the
Contracting Officer should consider reasonably available information about the
supply or service offered under multiple award schedule contracts by using the GSA
Advantage! on-line shopping service, or by reviewing the catalogs or pricelists of at
least three schedule contractors.

Based on the results of our audit, we found that the contract files did not have
sufficient information to show how the Contracting Officer followed the FAR
requirements for the 4 specific procurement actions noted above or for 13 of the
other 15 Envision contracts included in our audit.

Required Procedures for Statement of Work Documentation
In another documentation issue, we found that the Contracting Officer decided that a
statement of work was needed for 13 of the contracts included in our audit. This
indicates that the services were of such a nature that a statement of work was
needed. However, MSHA did not provide statements of work for three contracts
requiring similar services related to training, analyst, and programming support for
the common platform project totaling $3,635,407.

For those contracts determined by MSHA to require a statement of work, there was
no evidence in the files or otherwise provided by MSHA during our audit to show
how they had followed the FAR requirements for orders issued using the Federal
Supply Schedule contractors. For orders issued that required a statement of work,
MSHA contracting officials should have issued a request for quotes to at least three
schedule contractors. The Contracting Officer should have included the statement
of work in the request for quotes, evaluated responses, and then made a best value
selection. None of the contract files included evidence that this was done.

MSHA Claims Contracts Awarded Using SBA’s 8(a) Procedures
As noted in the discussion above, our audit disclosed that one contract was
designated as procured under the SBA’s 8(a) program. FAR 19.8 outlines
procedures for procuring services/supplies from SBA. When using the 8(a) program,
FAR 19.801-1 states that an agency should evaluate its current and future plans to
acquire the work that 8(a) contractors are seeking to provide, problems encountered
in previous acquisitions of the work from the 8(a) contractors or other contractors,

14                                  U.S. Department of Labor—Office of Inspector General
                                                        Report Number: 25-05-001-06-001
MSHA Procurements Showed a Pattern of Disregard
for Federal and DOL Acquisition Rules and Requirements

whether the work has been previously acquired using small business set-asides, and
any other pertinent information about known 8(a) contractors, the items, or the work.
When necessary, the contracting agency shall make an independent review of the
factors in 19.803(a) and other aspects of the firm’s capabilities that would ensure the
satisfactory performance of the requirement being considered for commitment to the
8(a) program. Contract files we reviewed did not provide sufficient evidence that
MSHA had performed the procedures set forth in FAR 19.8, including how it had, in
fact, contracted with SBA for the services or how it ensured SBA approved a sole
source award in accordance with FAR 19.808.1.

MSHA’s Contracting Officer Provided File Documentation Instructions
While FAR 13.106-3(b) is clear in its intent to allow contract documentation to be
limited to a minimum, a basic principle of sufficiency is not evident in MSHA contract
files included in our audit. Management, auditors, or other authorized interested
parties need to ensure laws and regulations are being followed in contracting.
Therefore, it is not reasonable to interpret the FAR as implying that evidence of
actions taken should not be maintained. MSHA’s Supervisory Contract Specialist
indicated this understanding in e-mails sent to the employees of the Acquisition
Branch in November 2001 and February 2002. The instructions from the November
e-mail stated that the FAR requires that files be documented for Simplified
Acquisitions and that competitions should be documented with at least a memo to
the file. In addition, the February e-mail informed staff that FAR Part 13 requires
that MSHA document contract files.

We believe the cause of the failure of MSHA’s contracting staff to comply with
applicable laws and regulations in contracts with Envision was a long-term culture
and procurement environment that had been established in MSHA. Contracting
Officers, although responsible for ensuring the agency followed procurement laws
and regulations, were not always provided the information needed on a timely basis
to make decisions that would ensure compliance. Based on correspondence
received during the audit, the Contracting Officer responsible for awarding the
Envision contract informed management on November 13, 2000, that statements of
work were not available in time to ensure the award could be contracted on a
competitive basis. The correspondence further noted that the Contracting Officer
told management that there were other companies on the GSA schedules that could
provide the services needed by MSHA. This information suggests the Contracting
Officer was not making contracting decisions for this procurement. Procurement
decisions were being made by officials other than those with the authority and
background to understand and apply procurement laws and regulations.

Conclusion
We believe that only 2 of the 19 contracts (see table 2 in finding 5) we reviewed
included information needed in order to ensure contracts were awarded in
accordance with laws and regulations. The other 18 contracts lacked sufficient
evidence to show how MSHA’s Contracting Officers followed contracting law and
regulations required for Federal Supply Schedule, Simplified Acquisition or 8(a)

U.S. Department of Labor—Office of Inspector General                                15
Report Number: 25-05-001-06-001
                                        MSHA Procurements Showed a Pattern of Disregard
                                  for Federal and DOL Acquisition Rules and Requirements

program acquisitions. In addition, while our audit was not designed to determine
whether MSHA got the best value for the funds spent, we believe this failure to
follow procurement laws and regulations put MSHA’s management in a position of
not being able to ensure the best value for the Government was obtained.

                             T/Clark and Associates (T/Clark) was primarily
 Finding 1b:
                             engaged in serving the IT community in the Federal
 T/Clark and
                             Government. T/Clark had marketing (reseller)
 Associates ($3.6
                             agreements with many computer equipment
 million)
                             manufacturers, including Apple, Dell, Gateway,
                             Hewlett-Packard, Epson, MicronPC and Toshiba.

In FY 2000, MSHA began an initiative to replace existing desktop computers
throughout the agency. MSHA developed and distributed an approved desktop
configuration with a list of allowable accessories.

Under this initiative, MSHA purchased $3.6 million of computer equipment during the
period July 2000 through September 2002 by issuing 101 purchase order contracts
exclusively to T/Clark. See Exhibit B for a detailed listing of these contracts. During
our audit, MSHA provided no evidence indicating it had considered any other
sources of supply or made any effort to determine that it was obtaining the best
value for the agency.

MSHA officials provided three explanations for the agency’s repeated purchases
from T/Clark:

     1. T/Clark and Micron had a teaming arrangement and MSHA placed orders in
        compliance with the requirements related to Federal Supply Schedule
        contracting.

     2. MSHA had a blanket purchase agreement with T/Clark and, therefore, was
        not required to consider other sources of supply.

     3. T/Clark was a small, woman-owned business located in a HubZone and
        MSHA placed orders with T/Clark as a small business set-aside.

Based on the information presented below, we believe there is no evidence to
support MSHA management’s explanations noted above related to contracts with
T/Clark.




16                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 25-05-001-06-001
MSHA Procurements Showed a Pattern of Disregard
for Federal and DOL Acquisition Rules and Requirements

1.     T/Clark and Micron had a teaming arrangement and MSHA placed
       orders in compliance with the requirements related to Federal
       Supply Schedule contracting.

T/Clark had an agreement with Micron allowing the company to resell Micron
products; however, this agreement did not constitute a teaming arrangement under
Federal procurement policy.

GSA defines a Federal Supply Schedule Contractor Team Arrangement as an
arrangement between two or more GSA Schedule contractors to work together to
meet agency requirements. A contractor team arrangement permits contractors to
complement each other’s capabilities to compete for orders for which they may not
independently qualify.

GSA further states that the contractor team arrangement should designate all team
members, their corresponding GSA Schedule contract numbers, and describe the
tasks to be performed by each team member, along with the associated proposed
prices.

T/Clark did not have a GSA Schedule contract; therefore, any arrangement between
T/Clark and Micron would not have qualified as a legitimate teaming arrangement.
MSHA officials were aware that T/Clark was not on the GSA Schedule, as evidenced
by the letter dated May 23, 2000, from the MSHA Contracting Officer to T/Clark that
authorized T/Clark to use the blanket purchase agreement (BPA) between Micron
and MSHA in procuring computer equipment, supplies and services.

Based on information provided by GSA contracting officials in response to our
questions on third-party vendors supplying goods and services to DOL, we found
that if an award is made to other than a GSA Schedule contractor, the purchase
cannot be awarded under FAR Part 8. Further, the items purchased should be
purchased in accordance with regulations for open market vendors (i.e., all
purchases over $2,500 must be competed, sole source contracts must be justified,
etc.).

The MSHA Contracting Officer cited FAR Part 52.251-1 as the authority for allowing
T/Clark to order from the Micron BPA. FAR Part 52.251-1 requires that the following
clause be inserted in solicitations and contracts when the Contracting Officer may
authorize a contractor to acquire supplies or services from a Government supply
source:

       The Contracting Officer may issue the Contractor an authorization to
       use Government supply sources in the performance of this contract.
       Title to all property acquired by the Contractor under such an
       authorization shall vest in the Government unless otherwise specified
       in the contract. Such property shall not be considered to be
       'Government-furnished property,' as distinguished from 'Government

U.S. Department of Labor—Office of Inspector General                                17
Report Number: 25-05-001-06-001
                                        MSHA Procurements Showed a Pattern of Disregard
                                  for Federal and DOL Acquisition Rules and Requirements

      property.' The provisions of the clause entitled 'Government Property,'
      except its paragraphs (a) and (b), shall apply to all property acquired
      under such authorization.

This clause has no application to the T/Clark – Micron situation. The clause
referenced applies to situations where the Government contractor would be
purchasing supplies or services to be used in the performance of their contract, such
as the operator of a Job Corps center being authorized to purchase office supplies
from the Federal Supply Schedule. This clause would not apply to a situation such
as this, where T/Clark purchased computer equipment off the Micron Federal Supply
Schedule and then resold it to MSHA.

We also found that MSHA did not comply with FAR requirements regarding the use
of Federal Supply Schedule contractors.

FAR Subpart 8.404(b)(2) states:

      Orders exceeding the micro-purchase threshold but not exceeding
      the maximum order threshold. Orders should be placed with the
      schedule contractor that can provide the supply or service that
      represents the best value. Before placing an order, ordering offices
      should consider reasonably available information about the supply of
      service offered under MAS contracts by using the 'GSA Advantage!'
      on-line shopping service, or by reviewing the catalogs/pricelists of at
      least three schedule contractors and select the delivery and other
      options available under the schedule that meet the agency’s needs.

We found no evidence that MSHA Contracting Officers had considered any readily
available information regarding other possible sources of supply for its computer
replacement needs. Rather, MSHA repeatedly issued contracts to T/Clark with no
assurance that the agency was getting best value.

2.    MSHA had a blanket purchase agreement with T/Clark and,
      therefore, was not required to consider other sources of supply.

MSHA stated that the agency placed orders with T/Clark based on a BPA with
Micron Government Computer Systems, Inc. (Micron), under Federal Supply
Schedule contract number GS-35-F-4317D.

While we agree that MSHA’s requirement for replacement computer equipment
might best be filled through the use of a BPA, we found no evidence of a properly
executed BPA between MSHA and T/Clark or between MSHA and Micron during the
period June 2000 through December 2002. (MSHA provided a copy of a BPA with
Micron, effective March 7, 2003.)




18                                  U.S. Department of Labor—Office of Inspector General
                                                        Report Number: 25-05-001-06-001
MSHA Procurements Showed a Pattern of Disregard
for Federal and DOL Acquisition Rules and Requirements

FAR subpart 8.404(b)(4) addresses BPAs under the Federal Supply Schedule, as
follows:

       The establishment of Federal Supply Schedule BPAs is permitted (see
       13.303-2(c)(3)) when following ordering procedures in this subpart. All
       schedule contracts contain BPA provisions. Ordering offices may use
       BPAs to establish accounts with contractors to fill recurring
       requirements. BPAs should address the frequency of ordering and
       invoicing, discounts, and delivery locations and times.

FAR Subpart 8.404(b)(5) addresses price reductions as follows:

       In addition to the circumstances outlined in paragraph (b)(3) of
       this section, there may be instances when ordering offices will
       find it advantageous to request a price reduction. For example,
       when the ordering office finds a schedule supply or service
       elsewhere at a lower price or when a BPA is being established
       to fill recurring requirements, requesting a price reduction could
       be advantageous. The potential volume of orders under these
       agreements, regardless of the size of the individual order, may
       offer the ordering office the opportunity to secure greater
       discounts.

MSHA was unable to provide a signed BPA with Micron or T/Clark, or
documentation related to the frequency of ordering and invoicing, discounts, and
delivery locations and times. We also found no evidence that MSHA requested a
price reduction based on either its recurring requirements or the potential volume of
its orders.

3.     T/Clark was a small, woman-owned business located in a
       HubZone and MSHA placed orders with T/Clark as a small
       business set-aside.

MSHA contracting officials stated that the awards to T/Clark were proper because
T/Clark was a small woman-owned business and the awards were made pursuant to
a small business set-aside.

As a reseller of Micron computers, T/Clark does not qualify as a small business
concern. FAR Subpart 19.102(f) states:

       Any concern which submits a bid or offer in its own name, other than
       on a construction or service contract, but which proposes to furnish a
       product which it did not itself manufacture, is deemed to be a small
       business when it has no more than 500 employees, and—




U.S. Department of Labor—Office of Inspector General                                19
Report Number: 25-05-001-06-001
                                           MSHA Procurements Showed a Pattern of Disregard
                                     for Federal and DOL Acquisition Rules and Requirements

           (1) . . . such nonmanufacturer must furnish in the performance of the
           contract, the product of a small business manufacturer or producer,
           which end product must be manufactured or produced in the United
           States.

Micron, the manufacturer, does not qualify as a small business concern; therefore,
as a reseller of Micron products, T/Clark would also fail to qualify as a small
business concern. Further, T/Clark was not a qualified HUBZone small business
concern during the period June 2000 to December 2002.

Moreover, even if T/Clark had qualified as a small business concern, the use of
small business set-aside procedures would have required MSHA to show how it
properly included SBA and/or GSA in the contracting process. There was no such
information in the T-Clark contract files or provided by MSHA during the audit.

FAR Subpart 19.502-4, Methods of conducting set-asides, states:

     (a)      Total small business set-asides may be conducted by using
              simplified acquisition procedures, sealed bids, or competitive
              proposals.

We found that at the time of the awards examined in this audit, T/Clark was not
registered as a woman-owned or Hub-Zone business.

Conclusion
Contracts awarded to T/Clark did not follow procurement rules related to full and
open competition. The use of Federal Supply Schedule contracting procedures was
not adequately documented to show how the Contracting Officer considered three
vendors’ price lists or catalogs before making a contractor selection from the Supply
Schedule. The selection of T/Clark using the Federal Supply Schedule contracting
procedures was not appropriate because T/Clark was not on the GSA schedule. In
addition, T/Clark could not have entered into a teaming agreement with Micron,
because only Supply Schedule contractors can participate in a teaming agreement.
Although MSHA selected Micron equipment and purchased the equipment from
T/Clark as a reseller, it did not show how T/Clark was competitively selected, either
among all other resellers of Micron equipment or, if considered a small business,
how it competed the award among other similar small businesses. While we did not
see any evidence of a conflict of interest with contracts awarded to T/Clark, we do
believe the contracts awarded to T/Clark were awarded based on convenience.




20                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 25-05-001-06-001
MSHA Procurements Showed a Pattern of Disregard
for Federal and DOL Acquisition Rules and Requirements

                               ARTI is headquartered in Alexandria, Virginia, and
 Finding 1c:
                               provides Information Systems Engineering, IT Security
 Advanced Resources
                               Services, and Network Engineering Services to clients
 Technologies, Inc.
                               in Government and private industry. ARTI is a small
 (ARTI) ($2.1 million)
                               disadvantaged business and is on the GSA Federal
                               Supply Schedule.

During our audit period, MSHA issued 14 contracts and contract modifications
totaling $2.1 million to obtain information technology services and network cabling
services from ARTI. See Exhibit C for a detailed listing of the 14 contracts.

In response to OIG inquiries, MSHA management stated that ARTI’s contracts were
based on the use of a GSA Federal Supply Schedule contract and, therefore, met
the FAR requirement for full and open competition. MSHA management further
stated that there was no requirement under the FAR when the ARTI orders were
placed that Contracting Officers document reviews of three offerors under GSA
Federal Supply Schedule contracts. Finally, MSHA management stated that ARTI
was a small business and setting aside a class of orders for ARTI was allowable
under the FAR for MSHA to meet small business goals established by the
Department.

MSHA’s Directorate of Program Evaluation and Information Resources (PEIR) is
responsible for support and training for all MSHA automated information systems,
data communications networks and ADP equipment. According to the Director of
PEIR, MSHA first began using ARTI for computer support services in 1997 or 1998.
PEIR initially obtained services – LAN administrators and help desk personnel in
MSHA’s Arlington headquarters offices – from ARTI using the GSA 8(a) FAST
multiple award contract vehicle. The GSA 8(a) FAST program is a multiple award,
indefinite delivery, indefinite quantity contract vehicle offering a variety of information
technology support services from approximately 150 8(a) small disadvantaged
business concerns. The PEIR Director stated that MSHA preferred the FAST
program because it provided a network of contractors that had already been
competed by GSA and, consequently, “the process was fast and it cut out the
procurement people.” While MSHA may have originally obtained services from ARTI
through the GSA FAST program, none of the 14 contracts we reviewed contained
any reference to a FAST contract. Further, none of the contract files included in our
audit provides evidence of MSHA’s discussion with GSA to identify ARTI as a sole
source under the FAST program or shows how MSHA paid the 1 percent
administrative fee that would have been due to GSA for use of that contracting
vehicle. Orders issued during our audit period either made no reference to a
Federal Supply Schedule contract or referenced Federal Supply Schedule Contract
No. GS-35F-5394H under GSA Schedule 70. Schedule 70 provides Federal
agencies with information technology and telecommunications hardware, software,
and professional services.




U.S. Department of Labor—Office of Inspector General                                    21
Report Number: 25-05-001-06-001
                                       MSHA Procurements Showed a Pattern of Disregard
                                 for Federal and DOL Acquisition Rules and Requirements

FAR Subpart 6.102(d)(3) states that the use of multiple award schedules (MAS)
issued under the procedures established by the Administrator of the General
Services Administration consistent with the requirement of 41 U.S.C. 259(b)(3)(A) for
the MAS program of the GSA is a competitive procedure.

Procedures for using a multiple award schedule are contained in FAR Subpart
8.404(b)(2). This FAR regulation has been in effect since 1995; therefore, it would
have been effective during the time of the ARTI contracts included in our audit
scope. FAR Subpart 8.404(b)(2) requires the ordering office to place orders with the
GSA Schedule contractor that can provide the supply or service that represents the
best value. Before placing an order, MSHA should have considered reasonably
available information about the supply or service offered under multiple award
schedule (MAS) contracts by using the GSA Advantage! on-line shopping service, or
by reviewing the catalogs or pricelists of at least three schedule contractors.

We found no evidence that MSHA had made any attempts to determine the agency
was receiving the best value when placing orders with ARTI. For example,
Purchase Order No. B2717529 was issued to procure the services of one Senior
Information Security Engineer full-time and one Senior Information Security Auditor
full-time to support the development, implementation and maintenance of MSHA’s IT
security program. As evidenced by the following e-mail dated December 7, 2000,
from the Contracting Officer, MSHA made no effort to determine if the agency was
obtaining the best value with this contract action:

      I found out through ARTI that a contractor [senior IT security specialist]
      is being hired to begin work Jan 2 through end of fiscal. . . .
      Arrangements have already been made, a person has been chosen
      and I have yet to see a requisition or sow [statement of work]
      submitted by MSHA. However, ARTI offered to fax a copy of the sow
      to me.

      Once again, I would appreciate it if you would speak with [Director -
      PEIR] about this. These requirements should be competed and should
      not be given to procurement after the fact.

MSHA also issued three purchase orders to ARTI related to network cabling
services at the MSHA Academy in Beckley, West Virginia. In this case, MSHA’s use
of the Federal Supply Schedule contract vehicle with ARTI resulted in a lack of
competition for the cabling services awards. ARTI subcontracted the work to Phillips
Computer Service, a computer company located in Beckley, and charged a 4
percent administrative fee.

The cabling contract is another example of a procurement handled in a hurried
fashion. An e-mail from the Contracting Officer dated June 28, 2001, states:




22                                  U.S. Department of Labor—Office of Inspector General
                                                        Report Number: 25-05-001-06-001
MSHA Procurements Showed a Pattern of Disregard
for Federal and DOL Acquisition Rules and Requirements



       I know this wiring thing is urgent. How do you want me to handle this?

       Ps – I left voice mail for [Name Deleted] at ARTI asking if they
       had GSA vehicle we could tap into for the wiring, but haven’t
       heard back yet.

The MSHA Program Office replied:

       If the ARTI fellow doesn’t call you back, let [names deleted]
       know. They will help facilitate his contact with you.

At 11:08 am on June 29, 2001, the Contracting Officer received a reply from ARTI
stating:

   Our GSA contract number continues to be: GS-35F-5349H.

   I would write this up as follows:

   Cabling effort at Academy, to include cables and other direct cost     80,000.00

   Admin fees 4% (including GSA user caf)                                  3,200.00
   Total                                                                  83,200.00

At 2:54 pm the same day (June 29, 2001), the Program Office sent the following
e-mail to the Contracting Officer:

       Could you please let me know if you were able to award the
       subject contract? Also, when did you schedule the contractor to
       begin work? [Name deleted] is working on the materials orders
       (3 each), but tells me that the vendors that are sending quotes
       do not guarantee delivery on Monday.

The lack of adequate planning time led MSHA to use the Federal Supply Schedule
contract with ARTI that resulted in the Contracting Officer not being able to
competitively bid the cabling contracts. By not competing the awards, MSHA has no
assurance that it obtained the best value.

We believe the cause of the failure of MSHA’s contracting official to comply with
applicable procurement laws and regulations in contracting with ARTI was an
established culture and procurement environment in place at MSHA. Contracting
Officers, although responsible for ensuring the agency followed procurement laws
and regulations, were not always given the information needed on a timely basis to
make decisions that would ensure compliance. Based on correspondence received
during the audit, the Contracting Officer responsible for ARTI contract decisions told
management that she had been informed by ARTI that a new contract was being


U.S. Department of Labor—Office of Inspector General                                  23
Report Number: 25-05-001-06-001
                                        MSHA Procurements Showed a Pattern of Disregard
                                  for Federal and DOL Acquisition Rules and Requirements

issued and arrangements had already been made for contractor personnel to begin
work, yet the Contracting Officer had not been provided a requisition or a statement
of work. The Contracting Officer indicated that these requirements needed to be
competed and should not be given to the Contracting Officer “after the fact.” This
type of statement by the Contracting Officer – who should have the ability to make
an informed decision on such significant contracts – shows an environment in which
contracting decisions were being made by officials other than those with the
authority and background to understand and apply procurement laws and
regulations.

While our audit was not designed to determine the potential waste of Federal
resources because of MSHA’s actions, we believe this failure to follow procurement
laws and regulations put MSHA’s management in a position of not being able to
ensure the best value for the Government was obtained.

Conclusion
MSHA’s contracting with ARTI is an example of how an environment of using
Contracting Officers to merely sign off on procurement actions -- rather than having
Contracting Officers actively involved in executing contract actions – resulted in
improper procurements. From the information provided during the audit, we could
not determine whether MSHA intended to use the Federal Supply Schedule
procedures, the GSA 8(a) FAST program, or sole source rules.

                              We received allegations that MSHA officials did not
 FINDING 1d:
                              follow FAR guidance in the purchase of LAN equipment
 GovConnection
                              in conjunction with the relocation of its office within
 ($682,671)
                              Arlington, Virginia. During early 2002, MSHA relocated
                              its headquarters in Arlington, Virginia. As part of this
                              relocation, expenditures were authorized for IT
                              equipment, the building of the computer room and the
running of network cabling.

In November 2001, MSHA IT officials advised GovConnection of MSHA’s upcoming
move in March 2002, and requested a quote for some computer equipment that
would be needed at the time of the move. MSHA IT officials worked with
GovConnection during the period November 2001 to February 2002 to get pricing
information and fine-tune the order. In February 2002, GovConnection provided its
final quote to MSHA IT officials for the computer equipment.

On February 26, 2002, almost 4 months after beginning informal negotiations with
GovConnection, MSHA IT officials submitted two requisitions to the MSHA IT
procurement office in Denver, Colorado. On that day, the Contracting Officer was
told by management in the procurement division in Arlington that it was critical to
purchase the equipment immediately. On February 27, 2002, an e-mail was sent to
the Contracting Officer directing the official to process the two requisitions. The
requisitions were described as equipment needed for the Arlington move and stated:

24                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 25-05-001-06-001
MSHA Procurements Showed a Pattern of Disregard
for Federal and DOL Acquisition Rules and Requirements



       These requisitions have the highest priority and need purchase
       orders issued today (Wed 2/27) to GovConnection.

Rather than processing the orders as directed, the Contracting Officer obtained
quotes from a second equipment supplier, by providing the second supplier
equipment specification lists developed by MSHA IT officials and prices provided to
MSHA by GovConnection. The Contract Officer violated FAR Part 15.306
concerning communication with offerors, by providing prices of one contractor to
another contractor. The second contractor provided quotes for the equipment that
were $17,663 less than those of GovConnection. Two purchase orders were issued
to the second supplier. After communications between MSHA management and the
Contracting Officer over a period of several days, the Contracting Officer canceled
the two contracts previously issued to the second supplier.

On March 5, 2002, under direction from an MSHA official in Arlington, the
Contracting Officer issued two contracts to GovConnection, one contract for
$364,081 to install Compaq Network Server Equipment and a second contract for
$318,589 to install Cisco Communication Equipment. The total for the two contracts
was $682,670.

On both contract documents obtained by the auditors, the Contracting Officer had
placed the following notation:

       Orders were placed under direction of [Chief, Management Services
       Division]. No competition or price reasonableness. [Chief,
       Management Services Division] was informed of FAR requirements.
       This equipment was already on order and in production prior to order
       being placed. Order to proceed was not given by procurement official.

Based on information available in the procurement files, interviews, and reviews of
laws and regulations, our audit disclosed that MSHA management did not follow
requirements for the use of Government Wide Acquisition Contracts (GWAC),
specifically, ECS II and SEWP III procurement rules.

Based on information on the face of the requisition and Purchase Order No.
B2527551 for $318,589.35 was intended to be issued pursuant to ECS II rules.
MSHA did not follow the requirements for placing orders using ECS II rules as noted
below:

   1. There was no documentation to show how MSHA’s Contracting Officer
      ensured the following “Fair Opportunity To Be Considered”
      requirements were met.
          • Compare the various products and services offered on at least
             (3) contractors’ electronic catalogs and document the
             comparison in the official Delivery Order file.

U.S. Department of Labor—Office of Inspector General                                  25
Report Number: 25-05-001-06-001
                                         MSHA Procurements Showed a Pattern of Disregard
                                   for Federal and DOL Acquisition Rules and Requirements

            •    The process used and the rationale for selection of the
                 contractor shall be documented in the Delivery Order file.
     2. There was no documentation to show how MSHA’s Contracting Officer
        ensured the following procedures to contact an ECS II contractor by one of
        the following methods were carried out:
           • Request for Quotes (RFQ) process – obtain (3) quotes through
                NITAAC’s online RFQ System
           • Direct Order Authorization (DOA) process –
                • Review (3) contractors’ electronic catalogs or call (3) ECS II
                   contractors to obtain quotes via fax.
                • Obtain appropriate documentation and submit the documentation to
                   the appropriate Contracting Officer.
                • Contracting Officer faxes the order to the winning contractor noting
                   it as a NIH ECS II contract and including the contractor number and
                   NIH authorization number.
                • Include a written best value analysis in the official file.

Based on information on the face of the requisition and Purchase Order No.
B2727550 for $364,081.29 was intended to be issued pursuant to SEWP III rules.
MSHA did not follow the requirements for placing orders using SEWP III guidelines.
The contract files did not contain documentation that:

     1. MSHA’s Contracting Officer followed the requirements to authorize
        GovConnection to purchase from a SEWP contract. For example,
        MSHA provided no documentation that the Contracting Officer had
        prepared and signed a statement authorizing the contractor to
        purchase from SEWP contracts;
     2. proved how MSHA routed the Delivery Order to the NASA SEWP
        BOWL to ensure a NASA SEWP tracking number was provided to the
        contractor;
     3. MSHA performed the appropriate market research as required in FAR
        Part 10;
     4. explained how MSHA performed either a class specific search, an
        RFQ to all contract holders in that class, or another equivalent method
        for providing fair opportunity; or
     5. explained the Contracting Officer’s rationale for placing the order with
        the chosen contractor.

As noted above, MSHA’s IT officials did not provide the Contracting Officer with
information on the procurement until the day before the procurement needed to be
completed. As a result, the Contracting Officer did not have the time necessary to
properly procure the IT equipment. MSHA’s procurement environment allowed
decisions about procurement to be placed with individuals who specialized in system
and equipment specifications and design rather than with trained and warranted
contract specialists. This environment contributed to the awarding of contracts to a


26                                    U.S. Department of Labor—Office of Inspector General
                                                          Report Number: 25-05-001-06-001
MSHA Procurements Showed a Pattern of Disregard
for Federal and DOL Acquisition Rules and Requirements

favorite or incumbent supplier rather than ensuring that MSHA obtained the best
value for the Government.

We also found that MSHA did not adequately maintain contract files for
GovConnection or Apparatus Sales in accordance with the requirements of FAR 4.8
or SEWP and ECS rules. Through responses to our statement of facts,
management informed us that the files had been transferred from Denver by
noncontracting personnel and necessary documents might not have been included
in the files. However, our audit found little or no documentation for those contract
actions. The lack of contract file documentation did not allow MSHA management
the ability to ensure Contracting Officer’s followed proper procedures and laws and
regulations to ensure the Government received the best value.

In addition, by not providing for proper procurement of these contracts, MSHA might
have paid more for the LAN requirements and left the Government open to protest
from suppliers who were not given a fair opportunity to compete and potentially
additional costs based on those protests.

Conclusion
Excluding the Contracting Officer during procurement planning led to a series of
actions in violation of procurement laws and regulations. The actions of all parties
involved in this contract decision resulted in violations of not only FAR requirements
for competition, but also FAR requirements to protect contractor information from
unauthorized disclosure to competitors and contracting under Government Wide
Acquisition Contracts’ (GWAC) procedures. MSHA did not ensure a best value
decision was made for the Government. See finding 6 for additional consequences
related to this procurement.

                              We received allegations that a sole source award to
 Finding 1e:
                              Performance Associates International, Inc. (PAI) was
  Performance
                              not justified because they were not uniquely qualified
  Associates
                              for the work required. During the period February 2002
  International, Inc.
                              to October 2003, MSHA entered into a series of three
  ($345,586)
                              contracts with Performance Associates International,
                              Inc. (PAI), to evaluate its training programs and make
recommendations to facilitate achieving agency goals and meeting the needs of
stakeholders. MSHA did not present, as required, two of the sole source advisory
and assistance contracts to the Procurement Review Board before awarding the
contracts. In addition, management did not give the Contracting Officer a
reasonable time to ensure the procurement process was properly completed for the
first contract awarded to PAI.

DLMS 2-800 provides requirements for agencies to follow when purchasing advisory
and assistance services. FAR Subpart 2.1 defines “advisory and assistance
services” as those services provided under contract by nongovernmental sources to
support or improve: organizational policy development; decision-making;

U.S. Department of Labor—Office of Inspector General                                 27
Report Number: 25-05-001-06-001
                                       MSHA Procurements Showed a Pattern of Disregard
                                 for Federal and DOL Acquisition Rules and Requirements

management and administration; program and/or project management and
administration; or research and development activities. It also can mean the
furnishing of professional advice or assistance rendered to improve the effectiveness
of Federal management processes or procedures (including those of an engineering
or technical nature).

DLMS 2, Paragraph 812.f states that the PRB is responsible for reviewing the
following actions and recommending approval or disapproval to the Assistant
Secretary for Administration and Management:

      (1) All proposed acquisitions and assistance actions over the small
          purchase limitation as defined in the FAR Part 13 that are to be
          awarded under "other than full and open competition" procedures.

      (2) All major acquisitions, within the Department, defined as:

             (a) FIP resources with an estimated contract life cycle cost in
                 excess of $2,500,000, or having significant computer
                 systems architecture technology or compatibility
                 ramifications for the Department.

             (b) Acquisition instruments having significant impact on the
                 Department.

      (3) All contracted advisory services and modifications of any amount to
          be awarded under "other than full and open competition"
          procedures.

      (4) All contracted advisory services over $50,000 to be awarded under
          "full and open competition" procedures.

      (5) All modifications to construction contracts over $200,000 (other
          than for equitable adjustments pursuant to the "Changes" clause).

      (6) All requests for ratification of unauthorized commitments.

We found MSHA officials had provided an explanation for not originally obtaining
prior approval from the PRB for the first contract awarded to PAI. In a revised
request to the PRB dated November 22, 2002, MSHA stated, “due to errors in
interpreting the applicability of Volume 2 of the Department of Labor Manual Series
regarding which contracts require Procurement Review Board (PRB) approval prior
to award, this proposal was not submitted to the PRB for review as it should have
been.” The document stated further that the Contracting Officer who placed the
order was told by an OASAM procurement official that since the contract was under
$100,000, PRB approval was not needed.


28                                  U.S. Department of Labor—Office of Inspector General
                                                        Report Number: 25-05-001-06-001
MSHA Procurements Showed a Pattern of Disregard
for Federal and DOL Acquisition Rules and Requirements

In addition, based on an e-mail dated March 5, 2002, we found that prior to issuing
the first contract to PAI, MSHA management had been in contact with an OASAM
official about advisory and assistance requirements. The e-mail noted that because
a representative of the Solicitor’s Office believed the work MSHA intended to award
as a sole source contract was in fact advisory and assistance, the Deputy Director of
Administration and Management “went directly to DOL for advance approval.” After
discussing the requirement with an OASAM procurement official, the “order was
placed.” Therefore, they did not believe the order was advisory and assistance and
did not present the contracts for the required PRB approval prior to issuing Purchase
Order No. B2522502.

However, as with other procurements discussed in this report, we found that MSHA
management failed to properly use the contracting process to ensure the
Contracting Officer who was asked to approve the procurement action was involved
in the way intended by law, regulation or policy. Based on information provided in
an interview with the Contracting Officer who approved the PAI contract, the auditors
found that the Contracting Officer had received an e-mail from a Procurement Policy
Analyst with what the Contracting Officer described as “directions to process the
purchase order immediately.” There was a handwritten notation on the e-mail
stating, “2/27/02, Instructions were to process, Performance Assoc. would be
starting on March 1, 2002.” An attachment to the e-mail included the sole source
justification and statement of work to be used for the contract. The contract was
awarded on February 28, 2002.

The sole source justification read as follows:

       MSHA has an immediate need to accomplish the required
       research and prepare the requested products within a specified
       time frame and budget. The requested research requires a
       contractor that is familiar with the mining industry and mining
       training in order to permit results to be more immediately
       produced. The results are required for implementation of a
       significant portion of the Agency performance plan that in turn
       will save lives in the mining industry. The contractor must also
       be able to start this project immediately and must have
       established contacts and familiarity with the subject matter to
       allow for minimal travel and training startup costs in order to
       perform within the established budget limitations. The proposed
       contractor, Performance Management Associates, Inc. has a
       wealth of experience in dealing with mine training needs, meets
       the established criteria and can begin work immediately.

The ratification of Purchase Order No. B2522502 in the amount of $25,000 was
subsequently approved by the PRB based on MSHA’s characterization of PAI’s
unique ability in the area of metal and nonmetal mining training.



U.S. Department of Labor—Office of Inspector General                               29
Report Number: 25-05-001-06-001
                                         MSHA Procurements Showed a Pattern of Disregard
                                   for Federal and DOL Acquisition Rules and Requirements

Purchase Order No. B2522508, awarded on June 12, 2002, in the amount of
$83,841, required PAI to provide coordination of activities of MSHA project teams
formed to implement the recommendations resulting from the first contract with PAI.
The contract included a sole source justification and a notation that it was "urgent &
compelling."

The sole source justification for this contract reads as follows:

       MSHA has an immediate need to accomplish the required
       research and prepare the requested products within a specific
       time frame and staying within a limited budget. The requested
       research requires a contractor that is familiar with the mining
       industry.

When first presented to the PRB, Purchase Order No. B2522508 in the amount of
$83,840.97 was not approved by the PRB because they were not convinced that the
statement of work indicated the contract was in fact advisory and assistance
services. The Department of Labor’s Office of the Solicitor (SOL) confirmed in
January 2003 that this contract was for advisory and assistance services. MSHA
resubmitted the award to the PRB on March 4, 2003, but there is no record of PRB
approval or action on this second request.

We did not find MSHA’s justification for sole source procurement for either purchase
order to present a reasonable argument for the sole source awards. Although the
justification made general statements that PAI could perform the services required in
the time requested, it does not provide any documentation or details to support the
claims that the company was the only contractor who could meet the requirements.
Thus, MSHA cannot show how it complied with all requirements of FAR 6.302-1 and
6.302-2 for other than competitive procurement due to having only one source or the
requirement being an urgent and compelling need. As evidence that MSHA’s
statements of the unique abilities of PAI were not completely accurate, a PAI
representative told us that anyone with experience in mining and evaluating training
programs could have performed the initial contract requirement.

Finally, contract no. J8R31007 in the amount of $236,745, awarded on October 1,
2003, required PAI to provide an evaluation of MSHA training programs for
enforcement, engineering, and education, and to provide training. This $236,745
contract was competitively procured. When the contract was first provided to the
PRB for approval as a sole source award, the PRB decided the information
presented by MSHA did not “sufficiently justify the sole source contract.” MSHA
subsequently competitively procured this service that resulted in PAI being awarded
the contract.

Conclusion
Although we found MSHA had engaged in discussions with OASAM procurement
officials and PRB representatives in connection with the PAI contracts, we believe

30                                    U.S. Department of Labor—Office of Inspector General
                                                          Report Number: 25-05-001-06-001
MSHA Procurements Showed a Pattern of Disregard
for Federal and DOL Acquisition Rules and Requirements

that they did not ensure procedures were in place nor that contracting personnel had
sufficient understanding of the need for PRB approval on advisory and assistance
services or sole source awards. In addition, management did not ensure the sole
source justifications prepared by MSHA personnel were sufficient as required by the
FAR and did not ensure the requirement was provided to Contracting Officers in a
timely manner to ensure proper contracting procedures were followed.

                              In response to the various allegations received during
 FINDING 1f:
                              the period September 2002 to March 2003, we
 Sole Source Awards
                              reviewed contracts MSHA had entered into with the
 ($237,731)
                              following vendors:

                              1. Ben W. Sheppard & Associates $201,925
                              2. E.L. Hampton Trucking        $ 11,122
                              3. Former MSHA Employee         $ 24,684

All contract actions with the above vendors were performed using sole source
procedures. We found that sole source justifications, when prepared, were not
adequate to support MSHA’s decision not to use competition.

1. Ben W. Sheppard & Associates

We received an allegation that the sole source award to Ben W. Sheppard &
Associates, Inc., was not justified because they were not uniquely qualified to
provide the required services. The Department's general ledger system, as of
July 25, 2003, shows that MSHA paid Ben W. Sheppard & Associates 197 payments
of $1,025 each for a 5-day training course titled "Certified Mine Safety Professional
(CMSP) Exam Preparation Course." The 197 payments of $1,025 total $201,925.

The training course was offered at the MSHA Training Academy in Beckley, West
Virginia, on the following dates:

             Course Dates                                Number of Attendees
         January 14 – 18, 2002                                   14
         February 18 – 22, 2002                                  3
           March 25 – 29, 2002                                   15
            April 2 – 5, 2002                                    16
           June 24 – 28, 2002                                    19
           August 5 – 9, 2002                                    24
        September 23 – 27, 2002                                  14
     September 30 – October 4, 2002                              26
     October 28 – November 1, 2002                               32
          December 2 – 6, 2002                                   34
                 TOTAL                                          197



U.S. Department of Labor—Office of Inspector General                                   31
Report Number: 25-05-001-06-001
                                       MSHA Procurements Showed a Pattern of Disregard
                                 for Federal and DOL Acquisition Rules and Requirements

Our audit disclosed that this training, while initiated by the Administrator of the
Metal/Nonmetal Division in the fall of 2001, was expanded under the direction of
MSHA’s Director of Education. Through e-mails dated in October 2001, there was a
general agreement that the “training” would benefit the entire MSHA organization
and MSHA should be consistent in whom the course was offered to and the payment
policy to be used. MSHA management told us that the scope of the training could
not have been known because this was voluntary training and no estimation was
done or could have been done. Based on the e-mails noted above, and an
allegation received by the OIG as early as May 2002, there was enough supporting
documentation to demonstrate that there could have been a reasonable basis for
estimating the potential attendance and costs. The information received through the
allegation in May 2002 stated that an estimated $200,000 was to be spent on this
particular training course. While we were not provided documentation to support
that estimate, the fact the estimate was close to the actual amount spent on the
training gives support that there could have been discussions among MSHA
management of the expected attendance and costs.

The DL1-101, Training Authorization and Evaluation Form, states the following:

      The DL1-101 is to be used to request, approve and record all
      training. The DL1-101 may be used as a payment document for a
      scheduled individual course. A manager or supervisor who wants
      to purchase an off-the-shelf course or have a consultant design a
      course for a group of employees must follow standard procurement
      procedures for obtaining and paying for such training. This
      requires that a DL1-1 (Department of Labor requisition for
      Equipment, Supplies or Services) be used to request the
      appropriate procurement action. Managers and supervisors
      should consult their servicing procurement or financial services
      office for further guidance. Completion of a DL1-101 is also
      required for all training procured through a DL1-1.

Since MSHA management indicated they never intended to compete this course,
they did not seek other training providers and did not provide any justification for a
sole source award for the training. Based on an interview with the training provider,
we were told that, “there were certainly others who could have provided this training,
but he [Sheppard] knew of no one who did offer to provide such a training course.”
Based on statements made by MSHA’s Director of Training, MSHA did not use
competition in this procurement because of the belief that, as this was individual
training, only the DL1-101 could be used as the procurement instrument. We
believe a lack of understanding or a failure in applying the requirements noted on the
DL1-101 caused MSHA to not consider the FAR’s requirement for competitive
procurement.

Also, MSHA management stated this certification was based on passing an exam
that would be given after this training was received. Our audit disclosed the

32                                  U.S. Department of Labor—Office of Inspector General
                                                        Report Number: 25-05-001-06-001
MSHA Procurements Showed a Pattern of Disregard
for Federal and DOL Acquisition Rules and Requirements

examination to become a CMSP is the exclusive property of the International Society
of Mine Safety Professionals (ISMSP) and there is no requirement of the ISMSP that
a person wishing to sit for the exam attend the course offered by Ben W.
Sheppard & Associates. However, based on information provided by MSHA
management, Ben W. Sheppard has exclusive rights to the ISMSP’s training
materials that are used in the training course he provides. They indicated this would
have prevented anyone else from providing training for the ISMSP exam using those
specific materials.

While we have not performed procedures to determine an alternative cost of training
of the scope of the Ben W. Sheppard & Associates training and CMSP examination,
the effect of MSHA management not using competition in this process is that they
could not ensure they obtained the best value for the money expended.

2. E. L. Hampton Trucking, Inc.

During the period FY 1999 – FY 2002, MSHA executed 17 contracts totaling
$11,122 to E. L. Hampton Trucking, Inc., for the use of a truck for mine inspector
training purposes at the MSHA Academy.

FAR 13.202 (a)(2) states that micro purchases may be awarded without soliciting
competitive quotations if the Contracting Officer or individual appointed in
accordance with 1.603-3(b) considers the price to be reasonable. Based on
statements from Contracting Officers and the training official involved in the
procurement, we found MSHA’s Contracting Officer did not approve the procurement
based on consideration of price reasonableness, but rather the training officer made
that determination on behalf of MSHA. The Contracting Officer was first advised of
the procurement when a request for payment was received by the procurement
office. The training official stated that he had conducted a market survey at the time
of the procurement and no other company was found that would provide the truck as
required for the training classes. However, based on an unscientific telephone
sample in January 2003, we found four trucking companies who indicated they could
provide the type of service involved in this procurement.

The condition noted above was caused by MSHA’s procurement environment that
allowed noncontracting personnel to solicit, evaluate, and procure goods and
services on behalf of MSHA. As noted in this instance, the warranted Contracting
Officer was involved after the fact of the procurement to approve the payment of a
purchase made by the training official.

3. Former MSHA Employee

During the period October 2000 through November 2001, MSHA issued four
purchase orders totaling $28,036 to a former employee to provide temporary clerical
services.



U.S. Department of Labor—Office of Inspector General                                 33
Report Number: 25-05-001-06-001
                                        MSHA Procurements Showed a Pattern of Disregard
                                  for Federal and DOL Acquisition Rules and Requirements

The first purchase order (Purchase Order No. B2518003, issued on October 3,
2000) was issued in the amount of $2,484, which is under the FAR $2,500
requirement for a micro-purchase; as a result, the Contracting Officer was not
required to obtain bids or provide a justification explaining the absence of
competition.

Purchase Order No. B2518019 ($10,000 for editing services) was issued without
competition on November 1, 2000. The contract file contained no sole source
justification or any other support to explain why MSHA did not use a competitive
process for this procurement.

On December 19, 2000, MSHA’s procurement office sent the following e-mail to the
program office:

       I will need a SOLE SOURCE justification e-mailed to me on
       [contractor] please. I thought I had one but, when I went to look
       in her contracts, I was unable to find one. (Purchasing Agent –
       Office of Automation) checked in their files also and couldn’t find
       one. . . When you e-mail me the SOLE SOURCE – I will put a
       copy of it with the latest requisition; I will also e-mail it to
       Purchasing, and also put copies in all (…) other contracts.
       THANKS!

The sole source justification attached to Requisition No. 943092 (Purchase Order
No. B2518044 for $8,100) and Requisition No. 002373 (Purchase Order No.
B2528026 for $8,100) stated:

       The person who is awarded this contract must have
       comprehensive knowledge of the Academy’s publications and
       publication procedures in order to maintain the publication
       history files, and the originals, negatives, and electronic copies
       of publications. I need to hire someone in this position who will
       require minimal involvement from me.

       Because she is the only person I know who fulfills this
       requirement, [Contractor] is uniquely suited for this contract.
       She can maintain the files, word process documents as needed,
       and perform miscellaneous clerical duties. She can also
       provide these services with very limited input from me.

The requisitions related to Purchase Order Nos. B2518044 dated December 28,
2000, in the amount of $8,100 and B2528026 dated November 2, 2001, in the
amount of $8,100 requesting the services of a temporary employee contained the
following sole source justification typed into the Description of Services section of
the requisition form:



34                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 25-05-001-06-001
MSHA Procurements Showed a Pattern of Disregard
for Federal and DOL Acquisition Rules and Requirements

       Assistance is needed from a person who is knowledgeable
       about our publications. The purpose is to organize the
       publication files, including originals, negatives, and electronic
       files; track the development and revision of publications; track
       the location of originals and negatives when they are removed
       from the official files; organize the course history files; word
       process drafts; and assist with various other duties associated
       with publishing course materials.
       Vendor: [Contractor]

The duties described in the sole source justifications fall into the category of general
clerical work. The justifications do not adequately explain the absence of
competition. The contract files contained no documentation indicating how the
contracting officials had considered the adequacy of the justification in making the
decision not to compete the requirement.

We believe the actions by MSHA personnel in this procurement resulted from the
procurement environment at MSHA that gave noncontracting personnel an
understanding that they could make contracting decisions without input from
properly trained Contracting Officers.

Conclusion
MSHA management cannot ensure that these procurement actions were in the best
interest of the Government or that all potential sources of supply were given a fair
opportunity to provide the needed services.

FINDING 1 CONCLUSION
For the audit period June 2000 through December 2002, MSHA could not show how
the Government received the best value or how the contract award process followed
Federal laws and regulations to ensure all potential suppliers received a fair
opportunity to compete for MSHA’s contracts.




U.S. Department of Labor—Office of Inspector General                                  35
Report Number: 25-05-001-06-001
                                           MSHA Procurements Showed a Pattern of Disregard
                                     for Federal and DOL Acquisition Rules and Requirements

                                         We received allegations that MSHA failed to
 Finding 2 – MSHA                        use required sources applicable to Federal
 Circumvented                            agencies in acquiring certain supplies and
 Requirements to Procure                 services. The specific actions that were
 Office Furniture and Travel             alleged to have violated procurement
 Management Services from                requirements involved (a) the acquisition of
 Required Sources                        furniture for the Denver office move, for
                                         which MSHA originally used a contractor
 (Allegations 14 & 15)                   other than Federal Prison Industries (FPI,
                                         brand name Unicor), and (b) Mon Valley
                                         Travel, Inc., which was contracted to provide
travel services for the Pittsburgh Safety and Health Technology Center (PSHTC) in
lieu of Carlson Wagonlit Travel and Omega Travel, the required sources for DOL
travel.

We found MSHA failed to comply with requirements to use required sources in
awarding contracts valued at approximately $857,000 ($740,000 for Mon Valley
Travel, Inc., and approximately $117,000 for vendors in lieu of FPI). These lapses
were caused by a lack of knowledge of procurement requirements, an environment
that allowed nonwarranted officials to engage in unauthorized commitments, and the
apparent lack of awareness on the part of MSHA’s headquarters procurement
officials of the unauthorized procurement activities of its field locations. As a result,
the Department violated Federal procurement regulations and was not assured it
received the best value for its expenditure of public funds. Further, DOL could have
been exposed to claims that required sources were denied revenues as a result of
MSHA’s failure to honor exclusive arrangements.

                                FAR Part 8, Subpart 8.602, mandated that agencies
 Finding 2a:
                                use FPI for certain required classes of products,
 MSHA Did Not Follow
                                including office furniture, and encouraged agencies to
 the FAR in Procuring
                                use FPI for other products. Subpart 8.605 established
 Furniture for the
                                that, for supplies manufactured by FPI, a clearance
 Denver Office Move
                                must be obtained from FPI before other sources are
                                used, except under the following conditions pursuant to
Subpart 8.606:

     •   Public exigency requires immediate delivery or performance;
     •   Suitable used or excess supplies are available;
     •   Purchases are made from GSA of less-than-carload lots of common-
         use items stocked by GSA (see Schedule A of the Schedule);
     •   The supplies are acquired and used outside the United States; or
     •   Orders are for listed items totaling $25 or less that require delivery within 10
         days.




36                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 25-05-001-06-001
MSHA Procurements Showed a Pattern of Disregard
for Federal and DOL Acquisition Rules and Requirements

MSHA’s move from the Lakewood, Colorado, office to the Denver Federal Center on
February 8, 2003, entailed facility design, selection and purchase of furniture, the
physical move, and transfer of LAN, mail, and telecommunications to the new
facility. MSHA’s records show the following move-related purchases of office
furniture were obtained from non-FPI sources between February 1, 2001, and
September 26, 2002:

       Vendor            Document Number              Date            Amount
 Kimball Furniture      MIR18138/268               2/01/2001     $       3,985.25
 Kimball Furniture      B2528170                   9/25/2002     $      91,176.38
 Berco Tableworks       B2528178                   9/26/2002     $      21,827.32
 Total                                                           $     116,988.95

According to the FAR, MSHA should have either:

   •   made these purchases from FPI in accordance with FAR Subpart 8.602;
   •   attempted to justify the non-FPI procurements under the exceptions listed in
       FAR Subpart 8.606; or
   •   sought a clearance from FPI pursuant to FAR Subpart 8.605.

MSHA did not justify the non-FPI procurements under the exceptions listed in FAR
Subpart 8.606. In addition, the MSHA Contracting Officer who authorized the
purchase orders stated that the agency had not obtained a clearance and that, at the
time, some MSHA personnel were not aware FPI was a mandatory source.
However, based on statements made by a former Supervisory Contract Specialist,
MSHA management was informed in early 2001 and again in early 2002 of the
requirement to either use FPI for furniture needed or obtain a clearance from the
Department of Justice for the use of another source for the new Denver office.
Based on information from Kimball Furniture reviewed during our audit, they were
told by MSHA’s “procurement team” to proceed with their proposal for the office
furniture because FPI could not meet MSHA’s requirements and had issued a
clearance to MSHA. It was noted through other interviews with MSHA personnel
that no such waiver was in fact obtained from FPI. This reported commitment to
Kimball was almost a month after the purchase order was issued to FPI for the office
furniture.

Despite significant purchases from non-FPI vendors, MSHA ultimately procured the
remainder of office furniture from FPI. The original purchase order with FPI, dated
September 27, 2002 (1 day after the purchase order with Berco Tableworks and 2
days after the purchase order to Kimball Furniture), was for $1,032,639.

MSHA management asserted to the auditors that Purchase Order No. B2528170 to
Kimball Furniture for $91,176 was for items that were either not on the FPI schedule
of supplies or on the FPI schedule but were in some cases purchased at half the
cost of the FPI schedule price. Based on our audit of the purchase order and
supporting documents, we found that, for some items on the purchase order and on

U.S. Department of Labor—Office of Inspector General                                  37
Report Number: 25-05-001-06-001
                                        MSHA Procurements Showed a Pattern of Disregard
                                  for Federal and DOL Acquisition Rules and Requirements

the FPI schedule of supplies, MSHA actually paid more than the FPI schedule of
supplies price rather than one-half the FPI schedule price. In addition, there is no
evidence that MSHA Contracting Officers attempted to follow FAR 8.605 (b) and (c)
related to the required process in instances the agency determines FPI prices are
higher than a commercial source prices.

In contradiction to management’s assertion that certain items on the noted purchase
orders were not available on the FPI schedule of supplies, FPI confirmed that, with
minor exceptions, in 2002 it did produce almost all of the items on Purchase Order
Nos. B2528170 and B2528178 that MSHA claimed were not available through FPI.

Using management’s assertion that they did not have to buy certain items through
FPI, we could find no evidence in the files to show how MSHA contracting officials
followed FAR requirements to compete the procurement, either through the Federal
Supply Schedule or under Small Business procurement rules.

MSHA did not follow procurement regulations for all furniture purchased for the
Denver office move for the following reasons:

     •   The Contracting Officer who issued the purchase orders was not aware of the
         FAR requirement to use a mandatory source.
     •   MSHA’s procurement environment was such that it allowed non-contracting
         officials to make decisions and enter into unauthorized commitments for
         goods and services without regard for procurement regulations or in direct
         disregard of input from warranted contracting officers.

Conclusion
MSHA’s use of Kimball Furniture through a sole source award was contrary to the
required source requirements in the FAR, as well as regulations requiring full and
open competition.

                           Under its Travel Management Center (TMC) Program,
 Finding 2b:
                           the GSA enters into master contracts for Government
 Improper Contract For
                           travel services. Federal agencies must have a task
 Operating Travel
                           order in place to receive travel services under the GSA
 Management Center
                           contracts. During our audit period, DOL held exclusive
                           task orders with Carlson Wagonlit Travel (Carlson) and
                           its successor, Omega World Travel (Omega), to
provide travel management services.

As part of our audit related to unauthorized commitments, we found that during the
period DOL had an exclusive contract for travel related services with Carlson and
subsequently Omega, MSHA had improperly purchased travel services for its
Pittsburgh Safety and Heath Technology Center (PSHTC) through another travel
company. The unauthorized commitment was the result of the Chief of PSHTC
improperly authorizing a task order with Mon Valley Travel on May 15, 2000, by

38                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 25-05-001-06-001
MSHA Procurements Showed a Pattern of Disregard
for Federal and DOL Acquisition Rules and Requirements

signing the task order as the Contracting Officer. This action violated FAR 4.101
that allows only Contracting Officers the right to financially obligate Government
funds. The reasoning provided by the office Chief in a ratification package sent to
the Procurement Review Board was, he believed he had the authority to sign the
task order because his predecessor had authorized the previous task order. We
were not provided any explanation why the office Chief believed it was appropriate
or legal to represent himself as someone with warrant authority.

On August 10, 2000, MSHA issued an administrative information bulletin, A00-46
informing MSHA employees that all DOL employees were required to use Carlson
Wagonlit for travel. However, PSHTC continued to obtain travel services from Mon
Valley through November 2001, at which time the contract was canceled for the
convenience of the Government. During the period from August 2000, through
October 2001, communications among the DOL’s CFO office, MSHA Administrative
Management personnel, finance personnel and PSHTC management indicated the
likelihood that payments to MSHA personnel using the unauthorized travel agent
might be withheld.

On February 22, 2002, MSHA sent a memorandum to the Assistant Secretary for
Administration and Management requesting ratification of the unauthorized
commitment with Mon Valley Travel, Inc., for the period of May 20, 2000, to
December 31, 2001. The ratification request included a finding that the “contract
would otherwise have been proper if made by an appropriate contracting officer in
the absence of an exclusive contract.” On April 11, 2002, the Procurement Review
Board recommended and the Assistant Secretary for Administration and
Management approved MSHA's request for ratification of an unauthorized
commitment to Mon Valley Travel, Inc., for services provided from May 31, 2000,
through November 18, 2001. The decision was based on the PRB's determination
that all of the required conditions stated in the Federal Acquisition Regulation's
Ratification of Unauthorized Commitments were met. The approval was predicated
on the fact that services being procured had been provided to and accepted by the
government, that the prices charged were fair and reasonable, that funds were
currently available, and funds were available at the time the services were provided

The above instance of failure to follow Federal procurement policy and DOL’s policy
on the use of a required source for all DOL employees was caused by an agency
environment that allowed personnel other than warranted Contracting Officers to
have an understanding that they had the right to obligate Government funds without
any regard for procurement laws and regulations. That was evident when the
PSHTC Chief signed the task order with Mon Valley as a Contracting Officer.

The actions described above resulted in MSHA management not being able to
ensure they obtained the best value for the Government over the years task orders
had been improperly approved by the PSHTC Chief and a potential for adverse
rulings on travel card payments that would have affected DOL employees who had
followed the travel rules provided to them by PSHTC and other MSHA management.

U.S. Department of Labor—Office of Inspector General                                  39
Report Number: 25-05-001-06-001
                                      MSHA Procurements Showed a Pattern of Disregard
                                for Federal and DOL Acquisition Rules and Requirements

In addition, based on documentation provided to MSHA management by OCFO
personnel responsible for DOL travel policy, the travel company who had been
awarded the sole source contract for all DOL travel could have sued the Department
for breach of contract because of improper actions of MSHA.

Conclusion
MSHA violated an exclusive DOL Nationwide contract with Carlson and
subsequently Omega when the Chief of the PSHTC improperly signed an agreement
with another TMC for travel for that location only.

FINDING 2 CONCLUSION
MSHA’s contracting environment did not include policies to ensure required sources
were used as required by laws, regulations, and DOL policy. Employees who were
not Contracting Officers made contracting decisions.




40                                 U.S. Department of Labor—Office of Inspector General
                                                       Report Number: 25-05-001-06-001
MSHA Procurements Showed a Pattern of Disregard
for Federal and DOL Acquisition Rules and Requirements

                                        We received an allegation that an MSHA
 Finding 3 – A Potential                employee contracted with a business owned
 Conflict of Interest Existed           by a spouse. MSHA management allowed
 in the Award of Contracts              contracting officials to sign purchase orders
 to a Company Owned by a                to obtain services from E. L. Hampton
 Contracting Officer’s                  Trucking, Inc., a company owned by the
 Spouse (Allegation 16)                 spouse of a warranted Contracting Officer
                                        and for whom the Contracting Officer was
                                        shown as a corporate officer. Management
                                        did not ensure the provisions of laws and
                                        regulations designed to stop a conflict of
interest in fact or appearance from occurring were followed. Based on the results of
our audit, we also found that contracting procedures for this contract allowed
services to be performed by the contractor without a contracting official first
approving the services.

Under FAR 3.601 it is directed that, “. . . contracting officer shall not knowingly award
a contract to a Government employee or to a business concern or other organization
owned or substantially owned or controlled by one or more Government employees.
This policy is intended to avoid any conflict of interest that might arise between the
employee’s interests and their Government duties, and to avoid the appearance of
favoritism or preferential treatment by the Government toward its employees.”
FAR 3.602 allows an agency head (or designee) to waive the Conflict of Interest rule
“if there is a most compelling reason.” In addition, 18 U.S.C. 208 provides a
discussion of acts affecting the personal financial interests of a Government
employee. That section states that an employee is considered to have a financial
interest if the employee participates personally and substantially as a Government
employee in certain contract actions with a company in which the employee or
his/her spouse is serving as an officer or employee. The section provides an
exception if the Contracting Officer first advises the Government official responsible
for appointment to his or her position of the nature and circumstances of the
contract, makes full disclosure of the financial interest, and receives in advance a
written determination made by the official that the interest is not so substantial as to
be deemed likely to affect the integrity of the services which the Government may
expect from the employee.

The Contracting Officer informed the auditors that she became aware of the
potential conflict when a payment for services request was received by the
contracting office. Through statements by the employee and her supervisor, we
were informed that the employee told her supervisor of the potential conflict
regarding a company owned by her spouse and action was taken to ensure that the
Contracting Officer was not directly involved in the contract approval. However, we
were informed that, although the MSHA employee did not sign any contract
documents, she directly supervised an employee who signed purchase orders with
E. L. Hampton Trucking, Inc. MSHA personnel also told us that the “Chief of
Acquisitions” in the Arlington office had obtained a waiver for this contract from

U.S. Department of Labor—Office of Inspector General                                  41
Report Number: 25-05-001-06-001
                                       MSHA Procurements Showed a Pattern of Disregard
                                 for Federal and DOL Acquisition Rules and Requirements

MSHA’s legal counsel (SOL). However, our audit disclosed that there is no
documentation that such a request was made to or provided by the SOL. MSHA
management could not provide any documentation that would be considered
necessary based on 18 U.S.C. 208 or FAR 3.602.

We believe this condition resulted from a procurement environment that allowed
noncontracting officials to make procurement decisions and engage in unauthorized
commitments for those services as a normal course of action. Although the
contracting officials did take steps to ensure the potential conflict of interest was
known, the lack of necessary documentation shows a lack of understanding of the
laws and regulations related to this area contributed to the conflict in fact or
appearance of a conflict of interest.

FINDING 3 CONCLUSION
MSHA’s decision to award repeated contracts to the spouse of a Contracting Officer
represented, at a minimum, the appearance of a conflict of interest and a violation of
FAR 3.601.




42                                  U.S. Department of Labor—Office of Inspector General
                                                        Report Number: 25-05-001-06-001
MSHA Procurements Showed a Pattern of Disregard
for Federal and DOL Acquisition Rules and Requirements

                                         We received an allegation that MSHA used
 Finding 4 - Excessive                   unauthorized commitments as an accepted
 Unauthorized                            practice for procurement. During the audit
 Commitments and                         period, MSHA personnel who did not have
 Ratifications Were Made                 contracting authority entered into contractual
 (Allegation 17)                         commitments on behalf of MSHA. These
                                         actions resulted in unauthorized
                                         commitments of Government funds. These
                                         conditions existed because of a procurement
                                         environment in MSHA that allowed
                                         noncontracting personnel to financially
commit MSHA for supplies and services they decided were needed rather than
allowing those decisions to be made by contracting personnel with the knowledge
and experience to ensure procurement regulations were followed. Based on
interviews with MSHA employees, this practice was common and those types of
commitments were called “confirming orders” rather than unauthorized
commitments. Further statements by MSHA employees noted that the environment
was impacted in 2001 when a new Supervisory Contract Specialist was appointed
who identified this practice as abusive and took steps to correct the practice. Among
those steps was rescinding warrant authority for all regional personnel until training
could be provided to help employees understand their duties. Although
Procurement Officials issued instructions to address this practice in 2001, some
MSHA personnel continued to engage in unauthorized commitments. As noted in
finding 2 of this report, Mon Valley Travel was a significant unauthorized
commitment entered into by MSHA personnel.

DOLAR Subpart 2901.603-71 provides that the Government generally is not bound
by agreements or commitments made to contractors by persons to whom acquisition
authority has not been delegated. The process of approving unauthorized
commitments after-the-fact is called “ratification.” The FAR Part 1.602-3 requires
that agencies take positive action to keep the need for ratification actions to a
minimum.

The formal requirement to present all unauthorized commitments for ratification
(review by the PRB and approval by the Assistant Secretary for Administration and
Management) came toward the end of our audit period, in the form of the August
2002 revision to Department of Labor Manual Series (DLMS) 2, Section 836. Even
before the policy was formalized in the DLMS, the understanding was that all
ratification requests were to be submitted to the PRB. However, we were told by
some MSHA and OASAM personnel that OASAM provided a waiver or otherwise




U.S. Department of Labor—Office of Inspector General                                43
Report Number: 25-05-001-06-001
                                                  MSHA Procurements Showed a Pattern of Disregard
                                            for Federal and DOL Acquisition Rules and Requirements

permitted MSHA to ratify unauthorized commitments under $2,500 without
submitting them to the PRB.2

A schedule prepared by an MSHA contracting official listed 53 unauthorized
commitments, of which 52 were initiated in 2000 and 2001; one was not dated. Of
these, 5 were presented to the PRB and 48 were not. All five of the requests that
went to the PRB exceeded the $2,500 micro-purchase threshold. Of the 48 ratified
“in-house” by the MSHA head of Acquisition – Purchasing, Contracts, and Grants, 2
exceeded the $2,500 micro-purchase threshold ($5,225 and $7,875), and should
have been submitted to the PRB.

MSHA ratifications of unauthorized commitments represented a significant portion of
total ratifications for all DOL agencies during the period. A document provided by an
OASAM official in February 2004 showed a total of 18 ratification requests since
April 2000, which consisted of the 5 from MSHA and an additional 13 from agencies
other than MSHA. MSHA’s five actions represented 28 percent of the total
ratification requests received by the PRB during the period.

FINDING 4 CONCLUSION
MSHA’s procurement environment allowed unauthorized commitments to become
the norm, rather than exceptions. Further, MSHA management did not provide
adequate support for contracting officials when improper procurement actions
resulting in unauthorized commitments were identified. The argument given by
management generally related to the urgency of the need or the unusual locations
program personnel would be working.




2
  More recently, the April 27, 2004, revision of the Department of Labor Acquisition Regulation (DOLAR)
establishes at 2901.603-3, thresholds under which agency officials may approve ratifications. Only ratification
requests above the Simplified Acquisition threshold are now subject to PRB review and Assistant Secretary for
Administration and Management ratification. Further, amounts under $2,500 may be ratified by the head of the
contracting office, which is a level below the head of the contracting activity.




44                                              U.S. Department of Labor—Office of Inspector General
                                                                    Report Number: 25-05-001-06-001
MSHA Procurements Showed a Pattern of Disregard
for Federal and DOL Acquisition Rules and Requirements

                                          Although we did not receive an allegation in
 Finding 5 – Deficiencies                 this area, during the course of our audit, we
 Existed in How MSHA                      found MSHA did not maintain contract file
 Administered Its Contracts               documentation that would support the
 (Not Based on an                         decisions made by Contracting Officers,
 Allegation)                              despite significant award amounts, including
                                          many that exceeded the Simplified
                                          Acquisition threshold pursuant to FAR
                                          Part 13. As noted in the findings in other
                                          sections of this report and below for specific
                                          contracts, MSHA management failed to
ensure contracting officials followed even minimum documentation requirements to
support decisions on the use of Federal resources. As noted earlier, the contract
files for LAN purchases for the Arlington office move did not contain any information
to support management’s contracting decisions. The auditors were forced to obtain
information on that significant purchase from the two companies involved in the
awards. MSHA’s procurement environment, at least through the period covered by
our audit, provided opportunity for abuse of the authority to procure supplies and
services granted to the agency. From misunderstandings of procurement laws and
regulations through willful disregard for those laws and regulations, MSHA
management could not ensure the Government received the best value or that all
qualified suppliers of supplies and services were afforded an opportunity to compete
for significant contract dollars.

FAR Subparts 4.101 and 4.102 require contracting officers and contractors,
including each participant in a joint venture, to sign contracts. FAR Subpart 4.101
provides that only Contracting Officers may sign contracts.

FAR Subpart 4.800 provides requirements related to the maintenance of contract
files for “all contractual actions.” FAR Subparts 4.801 requires the establishment of
files constituting a complete history of the transaction, and 4.802 requires that files
be readily accessible to principal users.

According to Subpart 4.800, the Subpart is optional for small purchases and other
acquisitions covered by FAR Part 13, Simplified Acquisition Procedures. However,
Subpart 13.106-3 provides that file documentation should be kept to a minimum, but
that data shall be retained “to the minimum extent and duration necessary for
management review purposes (see Subpart 4.8).” FAR Subpart 13.106-3(b) details
the records maintenance requirements for both oral and written solicitations, and
requires explanations regarding the absence of competition if only one source was
solicited and the purchase did not exceed the Simplified Acquisition threshold.




U.S. Department of Labor—Office of Inspector General                                  45
Report Number: 25-05-001-06-001
                                          MSHA Procurements Showed a Pattern of Disregard
                                    for Federal and DOL Acquisition Rules and Requirements

FAR Subpart 4.803 presents an exhaustive list of items normally maintained in
contract files, including:

     •   Purchase requests, acquisition planning, and other pre-solicitation documents
         – 4.803(a)(1)
     •   Justifications and approvals, determinations, findings, and associated
         documents – 4.803(a)(2)
     •   Evidence of availability of funds – 4.803(a)(3)
     •   Government estimate of the contract price - 4.803(a)(7)
     •   Cost/price proposals – 4.803(a)(10)(iii)
     •   Source selection documentation – 4.803(a)(13)
     •   Justification of the type of contract – 4.803(a)(22)
     •   The original signed award and all modifications – 4.803(a)(26)

In addition, FAR Subpart 13.106-3 states that, before making award, the Contracting
Officer must determine that the proposed price is fair and reasonable.

MSHA’s procurement actions with respect to two vendors – ARTI and Envisions –
provide examples of inadequate contract files we found during our audit.

Contracts Awarded to Advance Resource Technology, Inc.
We reviewed 14 procurement actions with respect to Advance Resource
Technology, Inc. (ARTI), with obligations of $2,106,887.23 in FYs 2001 and 2002.
We found the following weaknesses in the ARTI contract files:

     •   Five did not provide evidence of a consideration of the type of contract vehicle
         used in the award.
     •   Eight did not show a GSA Federal Supply Schedule contract number to
         support management’s assertion that all ARTI contracts were awarded using
         Federal Supply Schedule procedures.
     •   Fourteen did not have evidence that the Contracting Officer followed FAR
         requirements for use of the Federal Supply Schedule procedures to prove
         more than ARTI was considered during the award process.




46                                    U.S. Department of Labor—Office of Inspector General
                                                          Report Number: 25-05-001-06-001
MSHA Procurements Showed a Pattern of Disregard
for Federal and DOL Acquisition Rules and Requirements


                                                 File
                                              Identified
                       Total                     the        GSA        Evidence of
                        of          Date of   Contractor    # On       Considering
       PO#            Award         Order       Type       Contract   Other Suppliers
     B2707689          43,165.00   08/16/00       Y           N             N
     B2518008          24,986.15   10/06/00       Y           Y             N
     B2717507           2,805.00   11/03/00       Y           N             N
     B2717509         240,304.90   11/04/00       N           N              N
     B2717520          91,834.56   11/29/00       N           N              N
     B2717529         281,785.62   12/15/00       N           N              N
     B2518063          46,059.00   01/18/01       Y           Y             N
     B2717597         160,586.00   03/08/01       N           N              N
     B2717659          83,200.00   06/29/01       N           Y             N
     B2717689          98,836.00   09/12/01       Y           N             N
     B2528018           9,920.40   10/24/01       Y           Y             N
     B2727520         170,659.66   12/18/01       Y           N              N
     B2727519         843,590.30   12/21/01       Y           Y             N
     B2522553           9,154.64   09/27/02       Y           Y             N
       Total       $2,106,887.23
   Table 1 Irregularities in ARTI Purchase Order Files

Contracts Awarded to Envision
We reviewed 19 Envision purchase orders/contracts totaling $10,781,173.80. We
found the following significant weaknesses in the Envision contract files:
   • Four did not include a statement of work (SOW), as discussed in FAR
       Part 8.405 for service contracts.
   • Seven did not include a GSA Federal Supply Schedule number in the contract
       file.
   • Seventeen sole source justification statements were not adequate.
   • Seventeen contract files had no evidence that the Contracting Officer
       considered any supplier other than Envision.




U.S. Department of Labor—Office of Inspector General                                    47
Report Number: 25-05-001-06-001
                                         MSHA Procurements Showed a Pattern of Disregard
                                   for Federal and DOL Acquisition Rules and Requirements

                           Total               GSA # in    Justification     Evidence of
            Date of         of                 Contract    Adequate for    Considering Other
  PO #       Order        Award        SOW       File      Sole Source        Suppliers
B2717014   10/26/00        22,770.00     Y        N              N                N
B2717170    11/2/00       177,500.00     Y        Y              N                N
B2717515   11/13/00        23,139.60     Y        Y              N                N
B2717514   11/14/00        23,040.00     Y        Y              N                N
B2717525   12/05/00        24,240.00     Y        N              N                N
B2717524   12/05/00        24,240.00     Y        N              N                N
B2717539   12/29/00       151,500.00     Y        Y              N                N
B2717541   12/29/00       300,000.00     Y        Y              N                N
B2717556    1/17/01       291,342.00    N         Y              N                N
B2717584    2/28/01       182,252.00     Y        Y              N                N
B2717594   03/07/01     1,038,228.00    N         Y              N                N
B2717593    3/07/01       830,422.00     Y        Y              N                N
B2717625    4/24/01        77,552.00     Y        Y              N                N
B2727501   10/18/01     1,277,908.60     Y        Y              N                N
B2727503   10/26/01     2,305,836.80    N         Y              N                N
B2727525   12/21/01        62,926.80    NA        N            NA                 Y
B2727541    2/12/02         1,500.00    NA        N              N                N
B2727545    2/14/02         4,776.00    NA        N              Y                Y
J8R23001    3/05/02     3,962,000.00     Y        N              N                N

 TOTAL                $10,781,173.80
Table 2 Irregularities in Envision's Purchase Order Files

Although MSHA management asserts that the ARTI and Envision files contain
sufficient paper documentation and electronically available contract documentation
to minimize the risk to the Government, we believe this is not the case.

FINDING 5 CONCLUSION
MSHA did not properly document its contract actions. Although minimum
documentation was an acceptable method of documentation, our audit found that in
some cases the contracts had no documentation available to support the contract
decision. In contract files for ARTI and Envision, we found the files lacked any
evidence to ensure the Contracting Officer followed Federal Supply Schedule
procedures of considering other Federal Supply Schedule contractors in the
selection process. Because of the lack of information to show how or if that
consideration was performed, MSHA management could not ensure the
Government obtained the best value.




48                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 25-05-001-06-001
MSHA Procurements Showed a Pattern of Disregard
for Federal and DOL Acquisition Rules and Requirements

                                         We received allegations from different
 Finding 6 – We Could Not                sources asserting that MSHA had taken
 Conclude Whether Actions                adverse personnel actions against two
 Taken Against Two                       Contracting Officers in response to their
 Contracting Officers Were               having questioned procurement actions
 Retaliatory, as Alleged                 taken or planned by other MSHA officials.
 (Allegations 8, 18, & 20)
                                         In the first case, we received an allegation
                                         that a Supervisory Contract Specialist had
                                         been fired for travel card abuse after “not
                                         going along with management to cover up
                                         illegal procurements.”

We found that the Contract Specialist had been involved in a number of disputes
with program management, including disputes with an immediate supervisor. These
disputes included (1) removing contracting warrants granted to program personnel
because the Contract Specialist believed those persons lacked necessary training,
(2) identifying an ongoing practice of unauthorized procurement commitments,
(3) management not following procurement regulations in the purchase of LAN
equipment for the Arlington office move, and (4) the Contract Specialist’s supervisor
and another MSHA employee not using a required source for office furniture and not
obtaining a waiver from having to use that source. In addition, MSHA management
told us that after the Contract Specialist came back from leave, the Contract
Specialist accepted a detail assignment with OASAM without discussing the move
with an immediate supervisor or upper management.

We also found that the Contract Specialist had misused a Government travel card
on approximately 20 occasions from December 2001 through early April 2002, and
that MSHA’s management considered disciplinary actions against this employee for
this misuse. The Contract Specialist told the OIG that these instances of misuse
occurred during a time when the employee was attending to a serious personal
matter. Nevertheless, the Contract Specialist received a letter, dated July 19, 2002,
which proposed removal from employment with MSHA. The Contract Specialist’s
supervisor told the OIG that this action was taken because the employee’s position
allowed the employee unlimited warrant authority and, therefore, the abuse was
considered very serious and justified the termination action.

We evaluated travel card statements and records maintained by the Government
travel card company related to actions taken against MSHA employees for travel
card violations during the audit period, and we reviewed copies of e-mails between
MSHA personnel and OCFO personnel for the periods from 2000 through 2002. We
found travel card abuse by MSHA employees had been an ongoing management
issue. The travel card company identified numerous instances of employees not
paying a travel card balance, while the e-mails discussed abuses of employees not
paying travel card bills after being reimbursed, and employees using a travel card
while not on official travel. Despite these abuses, we found, during the period June

U.S. Department of Labor—Office of Inspector General                                    49
Report Number: 25-05-001-06-001
                                        MSHA Procurements Showed a Pattern of Disregard
                                  for Federal and DOL Acquisition Rules and Requirements

2000 through December 2002, only one other instance where an MSHA official
considered proposing termination as disciplinary action for travel card abuse. In this
instance, there were discussions regarding the removal of an employee; however,
the proposed and sustained action was a 3-day suspension.

In response to our request for current policies to address the issue of misuse of
travel cards by MSHA employees, we were provided copies of a memorandum sent
to all MSHA employees by the Assistant Secretary on December 9, 2002. This
memorandum noted that unauthorized use of a Government travel card could result
in disciplinary actions being taken against the employee. We were also given a
memorandum from the Assistant Secretary to MSHA managers and supervisors
dated December 10, 2002, that stated, “It is the Department of Labor and MSHA
policy to take appropriate disciplinary action in response to employee misconduct,
including unauthorized use or payment delinquency involving a government travel
card. As a general rule, discipline is intended to be remedial rather than punitive.” It
should be noted that both of these policy statements were provided after the actions
against the employee were taken.

In the second instance, we received allegations from various sources that an
employee was forced to retire in retaliation for refusing to process improper
procurement actions, and that MSHA later canceled a vacancy announcement for a
job for which the employee had been selected.

In late February 2002, on the same day as a dispute over a planned procurement of
MSHA equipment, a procurement official (the same supervisor noted in the first
instance above) included in the official’s Daily Record of Events a notation to move
the employee from a Regional Office to MSHA’s headquarters in Arlington, Virginia
(“move to Arlington”). On May 20, 2002, 3 months later, a reorganization plan was
submitted to and approved by the Assistant Secretary that included moving this
position from the Regional Office to Arlington. The employee decided to retire
instead of accepting the transfer.

In addition, after the employee retired, an MSHA Regional Office manager selected
the employee for a different position and issued a start date to the employee, but
withdrew the offer after being contacted by MSHA’s Arlington Office of
Administration and Management. The Director of Administration and Management
told the OIG that he decided to inform Regional Office management that the
employee was under investigation by the OIG for violating a provision of the FAR
while previously employed as a Contracting Officer for MSHA. The OIG had been
given a request from the Director to look into this issue; however, there was no such
investigation in progress involving the employee.

According to the employee, the actions taken by MSHA management contributed to
the employee leaving the agency prematurely. The employee filed a complaint of
retaliation against MSHA, which was eventually resolved through an agreement
between the employee and the Agency.

50                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 25-05-001-06-001
MSHA Procurements Showed a Pattern of Disregard
for Federal and DOL Acquisition Rules and Requirements

FINDING 6 CONCLUSION
We could not conclude whether actions taken against two Contracting Officers were
retaliatory, as alleged, because there was insufficient direct evidence to support their
claims.




U.S. Department of Labor—Office of Inspector General                                 51
Report Number: 25-05-001-06-001
                                       MSHA Procurements Showed a Pattern of Disregard
                                 for Federal and DOL Acquisition Rules and Requirements




Overall Audit Conclusion
Based on the results of our audit, we believe there was a history of MSHA career
and non-career management creating an environment for contracting decisions to be
made without regard to the intent of laws and regulations that insist on full and open
competition as an overriding principle of every award made by a Federal
Government official. That principle is highlighted in the FAR guidelines and should
be considered over what is “legal” or expedient in an agencies’ procurement
environment. It is not reasonable to believe that Congress intended streamlining of
Federal procurement to replace responsible actions on the part of agency
Contracting Officers or agency management. MSHA consistently demonstrated a
lack of regard for FAR principles and fostered an environment that allowed, or at the
very least had the appearance of allowing, best value through competition to be
replaced with awarding contracts based on favoritism or convenience. Contracting
Officers, although responsible for ensuring the agency followed procurement laws
and regulations, were not always allowed to do their jobs, but rather were
implementing decisions made by others. The lack of segregation of the procurement
function from the program function allowed program officials to exert undue influence
over procurement personnel.

The lack of adhering to the spirit as well as the letter of procurement law, leaves
MSHA vulnerable to protest from vendors who were not given the opportunity to
compete for MSHA’s contracts, or required sources that were not used in all cases.

In order to review how MSHA was currently documenting procurement activity, we
judgmentally selected five MSHA procurement documents from the Department’s
General Ledger system based on FYs 2003 and 2004 activity. We performed our
work in MSHA’s Arlington, Virginia, office on June 25, 2004. None of the contracts
reviewed were located in MSHA’s Beckley, West Virginia, or Denver offices. Based
on our observation of available files, we found that the contract files generally
contained information needed to support procurement actions and that such actions
were appropriate. However, there remains a lack of segregation between the
procurement function and the program, which continues the risk that procurement
failures could occur in the future.




52                                  U.S. Department of Labor—Office of Inspector General
                                                        Report Number: 25-05-001-06-001
MSHA Procurements Showed a Pattern of Disregard
for Federal and DOL Acquisition Rules and Requirements



Recommendation
We recommend that the Deputy Secretary of Labor direct the DOL Procurement
Executive to rescind MSHA’s procurement authority, reassign such authority, and
ensure that it is completely independent of MSHA.

AGENCY RESPONSE

The Deputy Secretary responded that it will be important to assess the full breadth
and effectiveness of procurement reforms initiated subsequent to the audit period
covered by our report, in order to make an informed judgment on the audit report's
recommendation.

OIG's CONCLUSION

As we previously stated in our report, while the degree of compliance with
procurement laws and principles may improve, unless a change is made to the
current structure there remains a lack of segregation between the procurement
function and the program, continuing this inherent risk that procurement failures
could occur in the future. As we also noted, the granting of such separate
procurement authority in the Department is limited — MSHA is one of only two
agencies with this authority. Therefore, the Department should look carefully at the
bona fide need to grant such authority in light of the inherent risk. Our
recommendation remains unresolved.




Elliot P. Lewis
October 20, 2004




U.S. Department of Labor—Office of Inspector General                                  53
Report Number: 25-05-001-06-001
                      MSHA Procurements Showed a Pattern of Disregard
                for Federal and DOL Acquisition Rules and Requirements




     THIS PAGE INTENTIONALLY LEFT BLANK




54             U.S. Department of Labor—Office of Inspector General
                                   Report Number: 25-05-001-06-001
MSHA Procurements Showed a Pattern of Disregard
for Federal and DOL Acquisition Rules and Requirements




Exhibits




U.S. Department of Labor—Office of Inspector General     55
Report Number: 25-05-001-06-001
                      MSHA Procurements Showed a Pattern of Disregard
                for Federal and DOL Acquisition Rules and Requirements




     THIS PAGE INTENTIONALLY LEFT BLANK




56             U.S. Department of Labor—Office of Inspector General
                                   Report Number: 25-05-001-06-001
MSHA Procurements Showed a Pattern of Disregard
for Federal and DOL Acquisition Rules and Requirements



                                                                             Exhibit A

The following contracts are provided to support finding 1a. As noted in that finding,
contract documentation was such that the type award was not apparent. This table also
illustrates a pattern of awarding contracts on a short-term basis. While we have not
concluded the best value for the Government was not ensured by MSHA, management
cannot be certain that the best value was received.

                        ENVISION TECHNOLOGY PARTNERS, INC.
     PO Number          Date       Amount                   Description
    B2717014         10/26/00         22,770.00 Analyst and Programming Support
                                                for the Common Platform Project
    B2717170         11/2/00         177,500.00 Network Engineer Support
    B2717515         11/13/00         23,139.60 Analyst and Programming Support
                                                for the Common Platform Project
    B2717514         11/14/00         23,040.00 Analyst and Programming Support
                                                for the Common Platform Project
    B2717525         12/05/00         24,240.00 Analyst and Programming Support
                                                for the Common Platform Project
    B2717524         12/05/00         24,240.00 Analyst and Programming Support
                                                for the Common Platform Project
    B2717541         12/29/00        300,000.00 Analyst and Programming Support
                                                for the Common Platform Project
    B2717539         12/29/00        151,500.00 Training Support for Common
                                                Platform Project
    B2717556         1/17/01         291,342.00 Training Support for the Common
                                                Platform Project
    B2717584         2/28/01         182,252.00 Intermediate Java Developers
    B2717594         03/07/01      1,038,228.00 Analyst and Programming Support
                                                for the Common Platform Project
    B2717593         3/07/01         830,422.00 Security Network Services
    B2717625         4/24/01          77,552.00 Document Management Analyst
    B2727501         10/18/01      1,277,908.60 Network Engineers
    B2727503         10/26/01      2,305,836.80 Analyst and Programming Support
                                                for the Common Platform Project
    B2727525         12/21/01         62,926.80 Software Licenses
    B2727545         2/14/02           4,776.00 Software Licenses
    B2727541         2/12/02           1,500.00 Trainer Expenses for INET Training
    J8R23001         3/05/02       3,962,000.00 System Engineering & Software
                                                Development Services
    Total                         10,781,173.80




U.S. Department of Labor—Office of Inspector General                             57
Report Number: 25-05-001-06-001
                                          MSHA Procurements Showed a Pattern of Disregard
                                    for Federal and DOL Acquisition Rules and Requirements

Exhibit B

The following table of contracts is provided to support finding 1b. As noted in that
finding, contract documentation did not support the awards. As shown in the table,
MSHA used the vendor to purchase 520 desktop computers at a cost of $1,062,492,
and 744 laptop computers at a cost of $2,296,816. Planning those type of purchases
and ensuring more sources participate in the process might have provided a better
value for the Government.

                           T/Clark and Associates, Inc.
        PO Number       Date       Amount                 Description*
     B2707677          7/14/00         8,955.00 Printers
     B2707715          9/26/00        12,822.50 Laptop Computers
     B2707717          9/29/00        51,290.00 Laptop Computers
     B2717501         10/24/00        12,820.00 Laptop Computers
     B2717502         10/28/00        21,546.00 Desktop Computers
     B2717523          12/5/00         1,878.07 Upgrade for Desktop
     B2717527         12/11/00         2,363.07 Desktop Computers
     B2717544           1/3/01        23,234.44 Desktop Computers
     B2717547           1/8/01         7,787.90 Desktop Computers
     B2717549           1/8/01         1,879.46 Desktop Computers
     B2717551          1/10/01        11,354.76 Desktop Computers
     B2717553          1/10/01         5,896.00 Laptop Computer
     B2717563          1/24/01         9,462.30 Desktop Computers
     B2717558           2/2/01        55,856.00 Desktop Computers
     B2717575          2/12/01        12,635.68 Desktop Computers
     B2717572          2/13/01         2,705.72 Desktop Computers
     B2717562          2/14/01        68,656.94 Laptop Computers
     B2717588           3/6/01         6,982.30 Desktop Computers
     B2717590           3/6/01         1,396.46 Desktop Computers
     B271718A          3/13/01        15,503.18 Laptop Computers
     B271718B          3/13/01         6,644.22 Laptop Computers
     B271718C          3/13/01         5,473.48 Laptop Computers
     B271718D          3/13/01         2,516.74 Laptop Computers
     B271718E          3/15/01         2,214.74 Laptop Computers
     B271718F          3/15/01       103,485.90 Laptop Computers
     B271718G           4/2/01        11,166.96 Laptop Computers
     B271718H          4/19/01        24,787.40 Laptop Computers
     B271718I           5/1/01        50,454.80 Laptop Computers




58                                 U.S. Department of Labor—Office of Inspector General
                                                       Report Number: 25-05-001-06-001
MSHA Procurements Showed a Pattern of Disregard
for Federal and DOL Acquisition Rules and Requirements

                                                                           Exhibit B

                             T/Clark and Associates, Inc.
      PO Number           Date       Amount                 Description*
   B271718K              5/16/01       429,531.12 Laptop Computers
   B2717608              3/30/01        11,059.98 Desktop Computers
   B2717609              3/30/01        16,874.50 Desktop Computers
   B2717610              3/30/01         5,948.38 Desktop Computers
   B2717611              3/30/01         2,941.74 Laptop Computer
   B2717612               4/2/01        14,375.00 Desktop Computers
   B2717613               4/3/01        28,809.12 Data/Video Projection
   B2717632               5/2/01       125,992.26 Desktop Computers
   B2717634              5/16/01        42,186.50 Desktop Computers
   B2717645              5/30/01         4,991.35 Desktop Computers
   B2717646               6/6/01         4,666.38 Desktop Computers
   B2717648              6/12/01         3,810.00 Desktop Computers
   B2717661              7/10/01         7,363.38 Desktop Computers
   B2717666              7/24/01         3,827.48 Desktop Computers
   B2717678              8/14/01         6,914.50 Laptop Computers
   B2717680              8/20/01         1,432.00 Desktop Computers
   B2717681              8/20/01        51,883.28 Desktop Computers
   B2717682              8/20/01        38,764.20 Laptop Computers
   B2717684              8/21/01         8,182.61 Desktop Computers
   B2717703               9/6/01         2,664.00 Desktop Computers
   B2717706              9/12/01       113,000.00 Laptop Computers
   B2717710              9/13/01        40,195.34 Tape Drives
   B2717711              9/14/01         3,816.00 Desktop Computers
   B2712660              7/10/01        34,357.84 Desktop Computers
   B2717723              9/25/01         2,030.41 Desktop Computers
   B2727507              11/1/01         5,501.00 Desktop Computers
   B2727509             11/21/01         5,500.82 Laptop Computers
   B2727511              12/6/01         2,415.10 Laptop Computers
   B2727513              12/6/01         2,330.30 Desktop Computers
   B2727514              12/7/01         4,052.94 Desktop Computers
   B2727517             12/17/01         1,219.58 Desktop Computers
   B2727524             12/21/01         5,178.48 Desktop Computers
   B2727526             12/21/01         9,518.76 Laptop Computers
   B2727527               1/2/02         3,485.30 Desktop Computers
   B2727535              1/22/02         6,292.23 Laptop Computers
   B2727536              1/23/02         3,334.00 Desktop Computers




U.S. Department of Labor—Office of Inspector General                          59
Report Number: 25-05-001-06-001
                                      MSHA Procurements Showed a Pattern of Disregard
                                for Federal and DOL Acquisition Rules and Requirements

Exhibit B

                         T/Clark and Associates, Inc.
        PO Number    Date        Amount                 Description*
     B2727537        2/5/02          7,135.08 Desktop Computers
     B2727546       2/26/02         11,156.46 Laptop Computers
     B2727558       3/29/02          3,630.00 Desktop Computers
     B2727569       3/29/02         61,430.76 Laptop Computers
     B2727570        4/2/02         78,544.80 Laptop Computers
     B2727574        4/3/02         49,328.44 Desktop Computers
     B2727575        4/3/02          2,646.31 Laptop Computer
     B2727576        4/3/02          4,830.00 Desktop Computer
     B2727578        4/4/02          6,102.55 Desktop Computer
     B2727579        4/5/02       249,664.42 Laptop Computer
     B2727563       4/16/02         12,580.00 Desktop Computer
     B2727587       4/16/02          1,220.51 Desktop Computer
     B2727590        5/2/02       139,422.09 Laptop Computer
     B2727592        5/2/02          5,600.00 Upgrades for Laptop
     B2727604       5/28/02          1,752.90 Desktop Computer
     B2727607        6/5/02          5,258.70 Desktop Computer
     B2727609        6/5/02          2,120.11 Laptop Computer
     B2727618       6/27/02          1,373.93 Desktop Computer
     B2727611       6/11/02          2,713.41 Printers
     B2727613       6/12/02          2,381.42 Laptop Computer
     B2727614       6/17/02          2,826.13 Laptop Computer
     B2727621        7/3/02          3,611.33 Laptop Computer
     B2727622        7/5/02          8,078.66 Laptop Computer
     B2522517       8/14/02        112,482.44 Laptop Computer
     B2522518       8/15/02         74,528.96 Desktop Computer
     B2522521       8/29/02         63,070.00 Desktop Computer
     B2522538       9/20/02         53,933.12 Laptop Computer
     B2522539       9/23/02         59,598.60 Desktop Computer
     B2522540       9/23/02        174,882.24 Laptop Computer
     B2522541       9/23/02         36,720.68 Desktop Computer
     B2522542       9/23/02        288,237.12 Laptop Computer
     B2522546       10/1/02        207,788.90 Laptop and Desktop**
     B2522551       9/25/02         44,323.80 Printers
     B2522552       9/25/02         41,496.75 Desktop Computer




60                             U.S. Department of Labor—Office of Inspector General
                                                   Report Number: 25-05-001-06-001
MSHA Procurements Showed a Pattern of Disregard
for Federal and DOL Acquisition Rules and Requirements

                                                                                           Exhibit B

                                  T/Clark and Associates
       PO Number            Date       Amount                 Description*
   B2522555                9/30/02        26,588.16 Printers
   B271717J                 5/2/01        75,095.68 Laptop Computers***
   B2717559                 2/2/01        94,776.60 Data/Video Projector***
   Total                               3,613,146.96

   *Description identifies the main purchase (computer and any related upgrades or accessories).
   **Total of $207,788.90 was based on the requisition because the contract was not in the file.
   ***Contract was not in the official file but was located with the paid invoice.




U.S. Department of Labor—Office of Inspector General                                               61
Report Number: 25-05-001-06-001
                                           MSHA Procurements Showed a Pattern of Disregard
                                     for Federal and DOL Acquisition Rules and Requirements

Exhibit C

The following schedule of contracts is provided to support finding 1c. As noted in that
finding, contract documentation did not provide evidence of how MSHA had properly
determined the use of GSA Federal Supply Schedule, 8(a) FAST program or sole
source rules.

                   Advanced Resource Technology, Inc.
PO Number        Date      Amount                  Description
B2707689      8/16/00       43,165.00 Network Cabling Services
B2518008      10/06/00      24,986.15 LAN Support
B2717507      11/03/00       2,805.00 Network Engineering Services
B2717509      11/04/00     240,304.90 Network Admin Services
B2717520      11/29/00      91,834.56 Network Admin Services
B2717529      12/15/00     281,785.62 IT Security services
B2518063      1/18/01       46,059.00 LAN Support
B2717597      3/08/01      160,586.00 Network Engineering Services
B2717659      6/29/01       83,200.00 Network Cabling Services
B2717689      9/12/01       98,836.00 Network Cabling Services
B2528018      10/24/01       9,920.40 Academy LAN Support
B2727520      12/18/01     170,659.66 LAN Admin
B2727519      12/21/01     843,590.30 IT Security Services
B2522553      9/27/02        9,154.64 E-Gov/GPEA Support
   Total                 2,106,887.23




62                                  U.S. Department of Labor—Office of Inspector General
                                                        Report Number: 25-05-001-06-001
MSHA Procurements Showed a Pattern of Disregard
for Federal and DOL Acquisition Rules and Requirements




Appendices




U.S. Department of Labor—Office of Inspector General     63
Report Number: 25-05-001-06-001
                      MSHA Procurements Showed a Pattern of Disregard
                for Federal and DOL Acquisition Rules and Requirements




     THIS PAGE INTENTIONALLY LEFT BLANK




64             U.S. Department of Labor—Office of Inspector General
                                   Report Number: 25-05-001-06-001
MSHA Procurements Showed a Pattern of Disregard
for Federal and DOL Acquisition Rules and Requirements



                                                                           Appendix A


Background
The Federal Mine Safety and Health Act of 1977 (Mine Act) created the Mine Safety
and Health Administration. The agency, previously known as Mining Enforcement and
Safety Administration within the Department of Interior, was transferred to the
Department of Labor (DOL) through provisions of the Mine Act.

MSHA is headquartered in Arlington, Virginia. MSHA’s mission is to administer the
provisions of the Mine Act and to enforce compliance with mandatory safety and health
standards as a means to:

              eliminate fatal accidents;
              reduce the frequency and severity of nonfatal accidents;
              minimize health hazards; and
              promote improved safety and health conditions in the Nation's mines.

MSHA is one of only two agencies within DOL with acquisition authority for the
purchase, lease and renewal of lease(s) of all Federal Information Processing
resources.

MSHA’s Directorate of Administration and Management (DAM) plans and directs all
MSHA administrative and management services. This directorate serves as MSHA's
authority on financial and human resource requirements, overseeing the Agency's
budget process, directing human resource development programs, and managing all
property management, acquisition, contractual, and grant-related transactions.

On May 20, 2002, the Assistant Secretary for Administration and Management
approved a reorganization of DAM. The reorganization established a new Acquisition
Management Division (AMD). The AMD is responsible for the solicitation, negotiation,
award, and administration of MSHA contracts, grants, cooperative agreements, and
interagency agreements. AMD has staff located at MSHA’s headquarters in Arlington,
Virginia, and at the Mine Safety and Health Academy in Beckley, West Virginia.




U.S. Department of Labor—Office of Inspector General                                 65
Report Number: 25-05-001-06-001
                      MSHA Procurements Showed a Pattern of Disregard
                for Federal and DOL Acquisition Rules and Requirements




     THIS PAGE INTENTIONALLY LEFT BLANK




66             U.S. Department of Labor—Office of Inspector General
                                   Report Number: 25-05-001-06-001
MSHA Procurements Showed a Pattern of Disregard
for Federal and DOL Acquisition Rules and Requirements



                                                                             Appendix B


Objectives, Scope, Methodology,
Sampling, and Criteria
Objectives

The OIG conducted an audit to assess the merits of allegations we received regarding
MSHA procurements and other matters, and for those allegations that were
substantiated, recommend appropriate corrective or other action.

Scope

We considered allegations received (see Appendix C) between May 2002 and
May 2003 pertaining to MSHA procurement and contracting procedures, Government
travel and purchase card usage, computer security, and personnel issues. Our audit
period was June 1, 2000, through December 31, 2002.

We conducted audit fieldwork between January 27, 2003, and October 20, 2004, at the
following MSHA locations: Arlington, Virginia; Denver, Colorado; Beckley, West
Virginia; and the Frances Perkins Building, Washington, D.C. In addition, we conducted
fieldwork in DOL’s Office of the Assistant Secretary for Administration and Management
headquarters, which is located in the Frances Perkins Building, Washington, D.C.

We conducted our audit in accordance with Government Auditing Standards issued by
the Comptroller General of the United States, and we performed such tests as we
considered necessary to satisfy our audit objective. Because our objective was limited
to assessing the merits of allegations, we did not test MSHA’s internal controls, and,
therefore, we do not provide any assurances over the extent to which internal controls
were properly designed or operating in MSHA.

Methodology

Due to the sensitivity of some of the allegations we received, the OIG initiated the audit
by making simultaneous unannounced visits on January 28, 2003, to MSHA
offices located in Arlington, Virginia; Beckley, West Virginia; and Denver, Colorado.
Throughout the audit, we conducted in-person and telephone interviews with MSHA,
OASAM, and SOL personnel, and MSHA contractors and vendors. The OIG’s Office of
Labor Racketeering and Fraud Investigations assisted us in conducting some
interviews. We consulted with OIG procurement specialists and legal counsel, and with
OASAM specialists regarding procurement requirements. We communicated


U.S. Department of Labor—Office of Inspector General                                 67
Report Number: 25-05-001-06-001
                                           MSHA Procurements Showed a Pattern of Disregard
                                     for Federal and DOL Acquisition Rules and Requirements

Appendix B

and received information by e-mail and facsimile as needed. We reviewed a variety of
materials, including allegation letters and e-mails, contract files, internal memoranda,
DOL accounting records, travel vouchers, invoices, payment transactions, personnel
records, day planner pages, and other documents. We also ran special tests to search
for unauthorized software on MSHA computers. Finally, we compared vendor listings
against DOLAR$ employee files and agency telephone listings to identify possible
conflicts of interest.

We encountered some difficulties in accessing information. In some instances, contract
files did not contain the required documents to support the type of procurement or show
whether FAR requirements were met. In such cases, copies of documents were
requested and received directly from the vendors. In a number of cases, individuals
who were involved in procurements during the audit period had retired. In two cases,
persons of interest were involved in legal proceedings against MSHA. These limitations
may have affected the completeness of the information we obtained.

On June 18, 2004, we provided MSHA a Statement of Facts that detailed the
information we developed in the audit. MSHA responded on July 8, 2004, and we
carefully considered MSHA’s response in preparing this report.

Sampling

To assess the merits of allegations that certain employees who misused their DOL
travel cards were treated unfairly compared to other employees in similar situations, we
judgmentally selected a sample of 72 MSHA employees who filed travel vouchers
during the audit period and analyzed all vouchers they submitted during that time. In
total, we analyzed 606 vouchers associated with the 72 sample employees. We also
sampled over 1,600 Citibank transaction records for MSHA employees.

We judgmentally selected procurement contracts from the contract and purchase order
log maintained by the Beckley office of MSHA. We focused on high-dollar and
information technology procurements. We selected some contracts because they were
specifically mentioned in the allegations.

Criteria

Although we received numerous communications and inquiries during the course of our
audit, we did not consider all to be allegations. For purposes of this report, we defined
an allegation as a clear assertion that wrongdoing occurred, which was presented in
writing or by e-mail to the OIG. In some cases, the same allegation was received from
more than one source.




68                                  U.S. Department of Labor—Office of Inspector General
                                                        Report Number: 25-05-001-06-001
MSHA Procurements Showed a Pattern of Disregard
for Federal and DOL Acquisition Rules and Requirements

                                                                            Appendix B

The following criteria apply to the four findings related to procurement:

   1. FULL AND OPEN COMPETITION

       Federal Acquisition Regulation (FAR)

       The Federal Acquisition Regulation (48 CFR Chapter 1) prescribes policies and
       procedures that all executive agencies are required to follow in purchasing goods
       and services. The regulations are intended to ensure full and open competition
       in the awarding of Federal contracts, but also allow Federal contract officers to
       justify sole source contracts or limited competition under specific conditions. By
       outlining the responsibilities of Federal contracting officers, the FAR promotes
       administrative efficiency and accountability.

       Competition requirements

       FAR Subpart 6.1 requires contracting officers to use full and open competition in
       soliciting bids for and awarding Federal contracts. However, FAR, Subpart 6.3
       describes specific circumstances where a Federal contract officer may
       recommend making a sole source award or limit competition to eligible women
       and minority-owned owned small businesses.

       Sole source procurement

       FAR Subpart 6.302 specifies conditions the Government may use to justify
       source award. These conditions include:

       6.302-1 – Only one responsible source and no other supplies or services will
                 satisfy agency requirements;
       6.302-2 – Unusual and compelling urgency;
       6.302-3 – Industrial mobilization; engineering, developmental, or research
                 capability; or expert services;
       6.302-4 – International agreement;
       6.302-5 – Authorized or required by statute;
       6.302-6 – National security; or
       6.302-7 – Public interest.

       Set-asides

       Additionally, FAR recognizes that each Federal agency sets goals related to
       contracting with women and minority-owned small businesses, as required by
       legislation such as the Small Business Act and HUBZone Act. FAR Subparts
       6.203-6.205 describe provisions related to set-asides for eligible 8 (a)



U.S. Department of Labor—Office of Inspector General                               69
Report Number: 25-05-001-06-001
                                          MSHA Procurements Showed a Pattern of Disregard
                                    for Federal and DOL Acquisition Rules and Requirements

Appendix B

        businesses or HUBZone small businesses. Contracting officers are not
        required to provide separate justification or findings to limit competition to 8(a)
        contractors.

        Federal supply schedules

        FAR Subpart 8.4 describes requirements for purchasing from the GSA
        Schedules [also referred to as Multiple Award Schedules (MAS)] that identify
        businesses with long-term government-wide contracts to provide goods and
        services to government agencies.

        FAR Subpart 8.404 requires that an agency wishing to buy off the MAS must
        use the GSA Advantage! Online shopping service or review the catalogs or
        price lists of at least 3 MSA contractors before choosing a vendor. However,
        the agency may consider such factors as past performance and maintenance
        availability in its decision.

        Simplified acquisition procedures – “Splitting” Prohibited

        FAR 13.106 describes procedures for soliciting competition, evaluating
        quotations or offers, awarding and documenting contracts. The FAR requires
        that agencies use simplified acquisition procedures as much as possible
        when buying supplies or services that are not higher than the simplified
        acquisition threshold or that are $2,500 or less.

        However, FAR Subpart CFR 13.003 (c) (2) prohibits agencies from “splitting”
        purchase orders. In “splitting,” an agency may break down the total
        requirement into several orders so it can avoid requirements that apply to
        purchasing goods or services above $2,500. In purchases $2,500 or less
        (micro-purchases), the contracting officer may recommend an award without
        obtaining competitive quotes if he or she considers the price to be reasonable
        [FAR Subpart 13.202(a)(2)].

        Communication with offerors

        FAR Subpart 15.3 prescribes policies and procedures to select a source or
        sources in competitive negotiated acquisitions. According to FAR Subpart
        15.306, the contracting officer may not communicate with offerors after they
        have submitted proposals in any way that shows favoritism, provides
        technical information about another offeror’s proposal, or reveals an offeror’s
        price without their permission. However, this section of the FAR allows the
        contracting officer to let an offeror know that the




70                                 U.S. Department of Labor—Office of Inspector General
                                                       Report Number: 25-05-001-06-001
MSHA Procurements Showed a Pattern of Disregard
for Federal and DOL Acquisition Rules and Requirements

                                                                              Appendix B

       Government considers its price too high or too low and to provide the analyses
       supporting this conclusion.

       PRB Approval Required

       Department of Labor Manual Series (DLMS) Section 2, (Administration)

       DLMS 2-817 (a) (1) requires that the Procurement Review Board approve
       contracted advisory services for sole source contracts or purchase orders of any
       amount.

       Limitations of using DL 1-101 form to procure training

       DL Form 1-101

       This form provides instructions to request, approve and record all individual
       training. The form states that the form is not an appropriate payment document
       for purchasing off-the-shelf training courses or services to provide training for a
       group of employees. In order to contract for group training, the agency manager
       or supervisor must use Form DL-1 (Department of Labor Requisition for
       Equipment, Supplies or Services).

       However, a DL 1-101 must also be completed for all training obtained through
       form DL-1.

   2. USE OF MANDATORY SOURCES

       Federal Acquisition Regulation (FAR)

       FAR Subpart 8.6 contains requirements for Federal agencies using and not
       using Federal Prison Industries, Inc., for purchases of certain listed products.

   3. CONFLICT OF INTEREST

       Federal Acquisition Regulation (FAR)

       FAR Subpart 3.601 requires that a Federal contracting officer must avoid conflict
       of interest and not knowingly award a contract to a Government employee or to a
       business or other organization owned or substantially owned or controlled by one
       or more Government employees.




U.S. Department of Labor—Office of Inspector General                                  71
Report Number: 25-05-001-06-001
                                            MSHA Procurements Showed a Pattern of Disregard
                                      for Federal and DOL Acquisition Rules and Requirements

Appendix B

     4. CONTRACT ADMINISTRATION

       Once the contract is awarded, proper administration is necessary to ensure that
       accurate and timely information and documentation about the contract are
       publicly available. Current contract files ensure accountability and provide
       documentation on the proper use of public funds.

       Federal Acquisition Regulation (FAR)

       Incomplete contract files

       FAR Subparts 4.101-102 require that both the contracting officer and contractor,
       including each participant in a joint venture, sign the original contract.

       FAR Subparts 4.801-803 require the contracting officer to establish and maintain
       accessible files that show a complete history of the transaction. Examples of
       required file information include: purchase requests, pre-solicitation documents,
       justifications, and evidence of fund availability, cost/price proposals, original
       signed award and modifications.

       FAR Subpart 13.106-3 states that before making an award the contracting officer
       must determine that the proposed price is fair and reasonable.

       Ratification of unauthorized contracts

       Under FAR Subpart 1.602-1(b), a Federal contracting officer can enter into a
       contract only if the officer can show that that all legal requirements, executive
       orders, regulations, and all other procedures, including clearances and
       approvals, have been met.

       However, FAR Subpart 1.602-3 prescribes how agencies can rectify or ratify
       unauthorized commitments. While such procedures are available, if needed, the
       FAR states that agencies should be proactive and prevent unauthorized
       commitment of funds as much as possible.

       FAR Subpart 1.602-3 provides that the Head of the Contracting Activity may
       ratify an unauthorized commitment, unless a higher-level official is designated by
       the agency.




72                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 25-05-001-06-001
MSHA Procurements Showed a Pattern of Disregard
for Federal and DOL Acquisition Rules and Requirements

                                                                             Appendix B

   CFR, Title 48, Chapter 29, Part 2901, Subpart 2901.6, Section 2901.603-71

   This section addresses procedures for ratifying unauthorized contract awards. It
   states that "The Government is not generally bound by agreements or contractual
   commitments made to contractors or prospective contractors by persons to whom
   acquisition authority has not been delegated. . . ."

   Department of Labor Manual Series (DLMS) Section 2, (Administration)

   DLMS 2, paragraph 832 (e) defines Head of Contracting Activity as the Assistant
   Secretary, Commissioner, or other chief official for each DOL Agency and the
   Director, Business Operations Center.

   DLMS, Section 836 (b) (3) requires the Procurement Review Board (PRB) to review
   the ratification of unauthorized obligations (as defined in DOLAR 2901.603.71) and
   for the Assistant Secretary for Administration and Management to approve them.

   Department of Labor Acquisition and Reporting (DOLAR) System

   DOLAR 48 CFR 2901.603-71(c)(2), required agencies to submit all contract
   ratifications to the Head of the Contracting Activity for concurrence. Once approved,
   the request was to be submitted to DOL’s Policy Review Board (PRB) for ratification
   with the concurrence of the Assistant Secretary for Administration and Management,
   or denial of the ratification request.

   Note: Under DOLAR 48 CFR 2901.603-3, as revised on April 27, 2004, agency
   officials may approve ratifications under established thresholds. Only ratification
   requests above the Simplified Acquisition threshold are now subject to PRB review
   and Assistant Secretary for Administration and Management ratification. With the
   revision, the head of the contracting office (a level below the Head of the Contracting
   Activity) may ratify amounts under $2,500. (The current DLMS 2, Paragraph 832e,
   defines Head of Contracting Activity, in the case of MSHA, as the Director,
   Administration and Management.)




U.S. Department of Labor—Office of Inspector General                                73
Report Number: 25-05-001-06-001
                      MSHA Procurements Showed a Pattern of Disregard
                for Federal and DOL Acquisition Rules and Requirements




     THIS PAGE INTENTIONALLY LEFT BLANK




74             U.S. Department of Labor—Office of Inspector General
                                   Report Number: 25-05-001-06-001
MSHA Procurements Showed a Pattern of Disregard
for Federal and DOL Acquisition Rules and Requirements



                                                                      Appendix C


SUMMARY OF ALLEGATIONS
     Allegation                                                    Report
      Number          Source          Nature of Allegation        Reference
         1        Anonymous     MSHA’s Assistant Secretary         Page 8
                  letter to OIG gave two of his friends
                  received      contracts that were supposed
                  9/25/2002     to be bid.
          2       Letter to OIG If a Deputy Assistant Secretary   Pages 8
                  dated         of MSHA continued to be
                  2/22/2003     involved with the International
                                Society of Mine Safety
                                Professionals, then the
                                contracts awarded to Ben
                                Sheppard and Gerry Silver
                                [PAI] constituted a conflict of
                                interest.
          3       Letter to OIG An MSHA Deputy Assistant           Page 9
                  Dated         Secretary and the International
                  8/2/2002      Society of Mine Safety
                                Professionals benefited
                                financially from the contract
                                awarded to Ben W. Sheppard &
                                Associates.
          4       Letter to OIG Training provided by Ben W.        Page 9
                  dated         Sheppard & Associates could
                  8/2/2002      have been obtained free of
                                charge from MSHA.
          5       Anonymous An MSHA Contracting Officer           Pages 9
                  Letter to OIG was forced to retire because
                  dated         MSHA did not want him talking
                  9/25/2002     about misdeeds involving
                                contracts and requisitions.
          6       Anonymous Illegal software was loaded on        Page 10
                  letter to OIG MSHA computers and
                  dated         payments were made to MSHA
                  9/25/2002     personnel in connection with
                                the improper actions and
                                covered up by management
                                personnel.



U.S. Department of Labor—Office of Inspector General                          75
Report Number: 25-05-001-06-001
                                           MSHA Procurements Showed a Pattern of Disregard
                                     for Federal and DOL Acquisition Rules and Requirements

Appendix C

     Allegation                                                          Report
      Number         Source              Nature of Allegation           Reference
         7        Hotline         The Office of the Assistant          Pages 10-11
                  complaint       Secretary for Administration
                  received        and Management (OASAM)
                  9/20/2002       tried to hire an MSHA
                                  employee while the employee
                                  was on administrative leave for
                                  misuse of a purchase card
                                  and/or the employee was
                                  detailed to OASAM with
                                  unlimited warrant authority
                                  while on administrative leave.

         8        Anonymous       An MSHA employee was                 Page 11 and
                  letter to OIG   transferred to OASAM for not         Pages 49-51
                  received        assisting in covering up
                  9/25/2002       improper procurement actions
                                  and was terminated illegally by
                                  MSHA for misuse of a
                                  Government travel card.

         9        Letter to OIG Performance Associates                 Pages 27-31
                  dated         International was not uniquely
                  8/2/2002      qualified to evaluate training
                                programs; therefore, the sole
                                source award was not properly
                                justified.
        10        Letter to OIG MSHA management did not                Pages 27-31
                  dated         intend to open the contract
                  8/2/2002      being performed by PAI to
                                competition as required by
                                Federal procurement law.
        11        Letter to OIG Ben Sheppard & Associates              Pages 31-33
                  dated         was not uniquely qualified to
                  8/2/2002      provide training services;
                                therefore, the sole source
                                award was not properly
                                justified.




76                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 25-05-001-06-001
MSHA Procurements Showed a Pattern of Disregard
for Federal and DOL Acquisition Rules and Requirements

                                                                         Appendix C

     Allegation                                                       Report
      Number          Source           Nature of Allegation          Reference
         12       Letter to OIG MSHA program officials              Pages 24-27
                  dated         verbally ordered the computers
                  3/18/2003     for the Arlington office move
                                before a procurement action
                                had been taken and they did
                                not order from the lowest
                                bidder.
         13       Letter to OIG High dollar procurements were       Pages 12-35
                  dated         placed without competition, or
                  10/7/2002     consolidation, by using small
                                purchase vehicles and
                                increasing the procurement by
                                millions of dollars over a period
                                of time.
         14       Letter to OIG The Denver move team was            Pages 36-40
                  dated         planning to purchase system
                  10/7/2002     furniture commercially from
                                Kimball Furniture without
                                seeking a waiver from the
                                Department of Justice, or
                                competing the requirement as
                                required by regulations.
         15       Hotline       MSHA management approved            Pages 36-40
                  complaint     illegal procurement of furniture
                  received      for the Denver office without
                  10/20/2002    consideration of the cost or
                                regulations.
         16       Anonymous An MSHA employee contracted             Pages 41-42
                  letter to OIG with a businesses owned by a
                  dated         spouse.
                  9/25/2002
         17       Letter to OIG MSHA used unauthorized              Pages 43-44
                  dated         commitments as an accepted
                  10/7/2002     practice for procurement.




U.S. Department of Labor—Office of Inspector General                              77
Report Number: 25-05-001-06-001
                                           MSHA Procurements Showed a Pattern of Disregard
                                     for Federal and DOL Acquisition Rules and Requirements

Appendix C

     Allegation                                                         Report
      Number          Source             Nature of Allegation          Reference
         18       Letter from     An MSHA Contracting Officer         Pages 49-51
                  Sen. Allard’s   was forced to retire because
                  office dated    the employee would not take a
                  9/24/2002       directed reassignment to
                                  Arlington, Virginia. The
                                  reassignment was related to
                                  the employee’s questioning the
                                  IT contract awarded to
                                  GovConnection.
        19                        An MSHA Contracting Officer         Pages 24–27
                                  was directed by MSHA
                                  supervisory personnel to
                                  process two purchase orders to
                                  cover unauthorized
                                  commitments totaling over
                                  $600,000.
        20        Letter from     MSHA management retaliated          Pages 49-51
                  Sen. Allard’s   against a Contracting Officer
                  office dated    when the Contracting Officer
                  5/6/2003        applied for and was offered a
                                  position with MSHA in Denver
                                  and the vacancy
                                  announcement was
                                  subsequently canceled.




78                                  U.S. Department of Labor—Office of Inspector General
                                                        Report Number: 25-05-001-06-001
MSHA Procurements Showed a Pattern of Disregard
for Federal and DOL Acquisition Rules and Requirements



                                                                            Appendix D


ACRONYMS AND ABBREVIATIONS
ARTI                 Advanced Resource Technology, Inc.
BPA                  Blanket Purchase Agreement
CMSP                 Certified Mine Safety Professional
DLMS                 Department of Labor Manual Series
DOA                  Direct Order Authorization
DOL                  Department of Labor
DOLAR                Department of Labor Acquisition Regulation
DOLAR$               Department of Labor Accounting and Related Systems
ECS                  Electronic Computer Store
FAR                  Federal Acquisition Regulation
FAST                 Federal Acquisition Services for Technology
FIP                  Federal Information Processing
FPI                  Federal Prison Industries
GSA                  General Services Administration
GWAC                 Government Wide Acquisition Contracts
HRD                  Human Resources Division
ISMSP                International Society of Mine Safety Professionals
IT                   Information Technology
LAN                  Local Area Network
MAS                  Multiple Award Schedule
MSHA                 Mine Safety and Health Administration
NASA                 National Aeronautics and Space Administration
NIH                  National Institutes of Health
NITAAC               National Institutes of Health Information Technology Acquisition
                     and Assessment Centers
OASAM                Office of the Assistant Secretary for Administration and
                     Management
OCFO                 Office of the Chief Financial Officer
OIG                  Office of Inspector General
PEIR                 Program Evaluation and Information Resources
PRB                  Procurement Review Board
PSHTC                Pittsburgh Safety and Health Technology Center
RFQ                  Request for Quotes
SBA                  Small Business Administration
SEWP                 Scientific & Engineering Workstation Procurement
SOL                  Solicitor of Labor
SOW                  Statement of Work
TMC                  Travel Management Center
U.S.C.               United States Code


U.S. Department of Labor—Office of Inspector General                               79
Report Number: 25-05-001-06-001
                      MSHA Procurements Showed a Pattern of Disregard
                for Federal and DOL Acquisition Rules and Requirements




     THIS PAGE INTENTIONALLY LEFT BLANK




80             U.S. Department of Labor—Office of Inspector General
                                   Report Number: 25-05-001-06-001
MSHA Procurements Showed a Pattern of Disregard
for Federal and DOL Acquisition Rules and Requirements




Agency Response




U.S. Department of Labor—Office of Inspector General     81
Report Number: 25-05-001-06-001
                      MSHA Procurements Showed a Pattern of Disregard
                for Federal and DOL Acquisition Rules and Requirements




     THIS PAGE INTENTIONALLY LEFT BLANK




82             U.S. Department of Labor—Office of Inspector General
                                   Report Number: 25-05-001-06-001
MSHA Procurements Showed a Pattern of Disregard
for Federal and DOL Acquisition Rules and Requirements



                                                         Appendix E




U.S. Department of Labor—Office of Inspector General          83
Report Number: 25-05-001-06-001
                   MSHA Procurements Showed a Pattern of Disregard
             for Federal and DOL Acquisition Rules and Requirements

Appendix E




84           U.S. Department of Labor—Office of Inspector General
                                 Report Number: 25-05-001-06-001
